<html>
<title> - WHETHER THE ATTEMPTED IMPLEMENTATION OF THE REID-KENNEDY IMMIGRATION BILL WILL RESULT IN AN ADMINISTRATIVE AND NATIONAL SECURITY NIGHTMARE</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
 WHETHER THE ATTEMPTED IMPLEMENTATION OF THE REID-KENNEDY IMMIGRATION 
 BILL WILL RESULT IN AN ADMINISTRATIVE AND NATIONAL SECURITY NIGHTMARE

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 27, 2006

                               __________

                           Serial No. 109-130

                               __________

         Printed for the use of the Committee on the Judiciary


      Available via the World Wide Web: http://judiciary.house.gov


                    U.S. GOVERNMENT PRINTING OFFICE
30-548                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  CHRIS VAN HOLLEN, Maryland
MIKE PENCE, Indiana                  DEBBIE WASSERMAN SCHULTZ, Florida
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, General Counsel-Chief of Staff
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              MAXINE WATERS, California
DANIEL E. LUNGREN, California        MARTIN T. MEEHAN, Massachusetts
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                         Allison Beach, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel
                            C O N T E N T S

                              ----------                              

                             JULY 27, 2006

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1

                               WITNESSES

Mr. Peter Gadiel, President, 9/11 Families for a Secure America
  Oral Testimony.................................................     4
  Prepared Statement.............................................     6
Mr. Michael Maxwell, former Director, Office of Security and 
  Investigations, United States Citizenship and Immigration 
  Services
  Oral Testimony.................................................     8
  Prepared Statement.............................................    11
Mr. Michael Cutler, former Examiner, Inspector, and Special 
  Agent, Immigration and Naturalization Service
  Oral Testimony.................................................    60
  Prepared Statement.............................................    62
His Excellency Nicholas DiMarzio, Bishop of Brooklyn
  Oral Testimony.................................................    65
  Prepared Statement.............................................    66

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    93
Letter from the Honorable F. James Sensenbrenner, Jr., a 
  Representative in Congress from the State of Wisconsin, and 
  Chairman, Committee on the Judiciary; the Honorable Henry J. 
  Hyde, a Representative in Congress from the State of Illinois, 
  and Chairman, Committee on International Relations; and the 
  Honorable Peter T. King, a Representative in Congress from the 
  State of New York, and Chairman, Committee on Homeland Security 
  to the U.S. Conference of Catholic Bishops.....................    95
Report from the United States Government Accountability Office 
  entitled ``Immigration Benefits: Additional Controls and a 
  Sanctions Strategy Could Enhance DHS' Ability to Control 
  Benefit Fraud,'' submitted by Michael Cutler, Former Executive 
  Examiner, Inspecter, and Special Agent; Immigration and 
  Naturalization Service.........................................    97
Article entitled: ``Irish in America Are `Under Seige','' by 
  Caitriona Palmer, submitted by the Honorable Sheila Jackson 
  Lee, a Representative in Congress from the State of Texas and 
  Ranking Member, Subcommittee on Immigration, Border Security, 
  and Claims.....................................................   154
Letter from the Essential Worker Immigration Coalition et al., 
  submitted by the Honorable Sheila Jackson Lee, a Representative 
  in Congress from the State of Texas, and Ranking Member, 
  Subcommittee on Immigration, Border Security, and Claims.......   155


 WHETHER THE ATTEMPTED IMPLEMENTATION OF THE REID-KENNEDY IMMIGRATION 
 BILL WILL RESULT IN AN ADMINISTRATIVE AND NATIONAL SECURITY NIGHTMARE

                              ----------                              


                        THURSDAY, JULY 27, 2006

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 12:49 p.m., in 
Room 2141, Rayburn House Office Building, the Honorable John 
Hostettler (Chairman of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    This is the second in a series of hearings reviewing the 
Reid-Kennedy immigration bill, S. 2611.
    The United States admits more permanent resident aliens 
than any other country, more than 1.12 million in fiscal year 
2005, a year in which we also gave refuge and asylum to some 
79,000 other aliens.
    In December, the House passed a bill that would ensure that 
our generous immigration laws, written by both Republican and 
Democratic Congresses over 5 decades, would be enforced and not 
abused.
    In the Reid-Kennedy bill, the Senate proposes to replace 
our current rational immigration process with a scheme to allow 
an unknown number of additional aliens who came here illegally 
to stay forever.
    Many would have us adopt that bill without public review. I 
believe, however, that before we consider a new amnesty, we 
must examine that bill in the light of the lessons that we 
learned from the last amnesty in 1986.
    As part of this assessment, the Subcommittee today will 
review the ability of U.S. Citizenship and Immigration Services 
to process the additional applications required by S. 2611 on 
the bill's extremely tight time schedule and the effects of 
granting those benefits on the national security.
    Immigration adjudications were a mess in 2001 when 
President Bush set 6 months as the goal for processing 
immigration applications. Congress supported this goal with 
$500 million in funds and furthered that effort in 2002 when it 
split immigration benefits from enforcement, in part, to ensure 
aliens received the benefits they were due.
    Those efforts have borne fruit. From a peak of 3.8 million, 
USCIS's backlog stands at 276,000 cases today.
    Despite these gains, the USCIS ombudsman has found that the 
agency ``has ongoing difficulties in providing timely 
service.'' An adjustment applicant must wait more than 1,000 
days in Greer and naturalization takes more than 900 days in 
Charleston.
    The ombudsman has cited aliens who have waited years for 
benefits. This is unacceptable.
    S. 2611 would add an overwhelming burden to USCIS, as it 
struggles to provide timely services. To comprehend this 
burden, consider that in fiscal year 2005 USCIS completed just 
less than 7.5 million applications. S. 2611 would add 10 
million to 20 million more amnesty applications, many with 
short processing times.
    How could this added burden not detrimentally affect aliens 
waiting to immigrate lawfully?
    Past experience is not encouraging. When the Clinton INS 
tried to process a large number of naturalization applications 
in time for the 1996 election under Citizenship USA, it made 
serious mistakes, naturalizing some 71,000 aliens with FBI rap 
sheets, 10,800 of whom had felony arrests. USCIS would face 
even greater challenges today.
    Its ability to process the new amnesty applications under 
S. 2611 would be impeded, if not hobbled, by fraud. That fraud 
is best assessed in terms of the 1986 amnesty. Hundreds of 
thousands of aliens are estimated to have fraudulently received 
amnesty under the 1986 law.
    What is worse, terrorists fraudulently abused the 1986 
amnesty to remain in the United States. One, Mahmud Abu Halima, 
a leader of the 1993 World Trade Center bombing, received 
amnesty as an agricultural worker in the 1986 law, even though 
he really drove a cab.
    Another, Mohammed Salameh, driver of the truck in that 
attack, also applied fraudulently for amnesty. To support his 
amnesty claim, Mir Kasi, who killed two in front of the CIA in 
1993, presented leases, employment letters and a letter from a 
friend in Pakistan. The 9/11 Commission staff found that these 
documents were all typed from the same typewriter.
    The drafters of S. 2611 did not make USCIS's job easier. 
Confidentiality bars, which hampered INS in investigating fraud 
in the 1986 amnesty, are not only replicated in this bill but 
they are raised, further frustrating fraud investigations.
    Moreover, it is reasonable to assume that fraud under S. 
2611 would be more pervasive and sophisticated than in the 1986 
amnesty. There are now more illegal aliens and thanks to 
computers they have access to higher quality fraudulent 
documents. Even the most diligent agency would be hard-pressed 
to combat fraud under the scheme in the Senate bill.
    USCIS's diligence in combating fraud under the crush of 
millions of future amnesty applications is questionable, 
however. Mike Maxwell, former chief of the Office of Security 
and Investigations at USCIS, who is with us today, has 
testified that the agency ``is operating an immigration system 
designed not to aggressively deter or detect fraud but, first 
and foremost, to approve applications.''
    Given past terrorist abuse of amnesty, the rubber stamping 
of millions of amnesty applications would pose an unacceptable 
risk to our people and our nation. This risk is heightened by 
the fact that S. 2611 would give valid IDs to aliens who were 
never screened by a consular officer in their home countries 
and who were never inspected at a port of entry. A new name and 
a new ID would allow a terrorist, known by his real name to our 
Government, to pass through our society undetected.
    We will review these issues with our witnesses today.
    At this time, I would turn to identification of the witness 
panel. Without objection, all Members' opening statements will 
be made a part of the record.
    Now I will introduce this panel of witnesses.
    Peter Gadiel is a founder of 9/11 Families for a Secure 
America, an organization comprised of families of victims 
killed in the September 11 terrorist attacks and survivors of 
the attacks. His 23-year-old son James, an assistant trader for 
Cantor Fitzgerald, worked on the 103rd floor of the north tower 
of the World Trade Center.
    Mr. Gadiel has volunteered full-time since early 2002 in 
the cause of securing U.S. borders against entry by terrorists. 
A graduate of Case Western Reserve School of Law, he is a 
member of the New Hampshire bar.
    Mike Maxwell is an independent national security consultant 
with more than 15 years of experience in the law enforcement 
and security arenas. He is the former director of the Office of 
Security and Investigations within U.S. Citizenship and 
Immigration Services. As director, Mr. Maxwell was responsible 
for implementing and managing a comprehensive security program 
for USCIS.
    Mr. Maxwell has conducted lectures and training sessions in 
security planning and management, law enforcement management 
and other fields for Federal agencies, like the FBI, the DEA, 
ICE and the Department of Defense. He holds a Masters degree 
from Cambridge College.
    Michael Cutler is a retired senior special agent with the 
Immigration and Naturalization Service's New York district 
office. He received his Bachelor of Arts degree from Brooklyn 
College of the City University of New York in 1971 and that 
year joined the INS as an immigration inspector at JFK Airport. 
From 1973 until 1974, he was assigned as an examiner to the 
unit responsible for adjudicating petitions filed by United 
States citizens and lawful permanent resident aliens for their 
alien spouses.
    In 1975, he became an INS criminal investigator. In this 
capacity, he rotated through all of the divisions in the New 
York district's investigations branch. In 1991, he was made a 
senior special agent and assigned to the Organized Crime Drug 
Enforcement Task Force.
    Mr. Cutler has appeared as a witness at congressional 
hearings at the invitation of both Republican and Democratic 
Members. He is currently a fellow at the Center for Immigration 
Studies.
    Bishop Nicholas DiMarzio was installed to lead the Roman 
Catholic Church's Brooklyn diocese in October 2003. He began 
his ministry to migrant communities in 1976 as the refugee 
resettlement director for the archdiocese of Newark. Then-
Father DiMarzio moved to Washington in 1985 when he was 
appointed the executive director of Migration and Refugee 
Services for the U.S. Catholic Conference.
    He was elevated to the rank of Bishop by Pope John Paul II 
in 1996 and thereafter chaired the Migration Committee of the 
U.S. Conference of Catholic Bishops and the Catholic Legal 
Immigration Network, Incorporated. In 2000, Bishop DiMarzio was 
appointed a member of the Pontifical Council for the Pastoral 
Care of Migrants and Itinerant People.
    Gentlemen, if you will please stand and raise your right to 
take the oath.
    [Witnesses sworn.]
    Mr. Hostettler. Thank you very much. You may be seated.
    And let the record show that the witnesses have responded 
in the affirmative.
    Gentlemen, you will notice the set of lights before you. 
Without objection, your entire written testimony will be made a 
part of the record. We ask that if possible you summarize as 
close within the 5 minutes for your oral testimony.
    Mr. Gadiel, you are recognized. And could you turn the 
microphone on there?

   TESTIMONY OF PETER GADIEL, PRESIDENT, 9/11 FAMILIES FOR A 
                         SECURE AMERICA

    Mr. Gadiel. Sorry.
    Mr. Hostettler. Thank you.
    Mr. Gadiel. Mr. Chairman and Members of the Committee, 
thank you for the opportunity to speak on behalf of so many who 
are the victims of crimes committed by illegal aliens, crimes 
made possible because our Government failed to prevent 
terrorists and felons from crossing our nation's borders.
    As president of 9/11 Families for a Secure America, I and 
my Members agree that S. 2611 would be an administrative and 
national security nightmare. But words such as 
``administrative'' are bloodless, bureaucratic terms that don't 
adequately describe the devastation amnesty inflicts on 
Americans.
    Speaking as the bereaved father of a young man killed by 
terrorists who were allowed into our country only because of 
the power and influence of the open borders lobby that now 
stands behind S. 2611, I will speak in plain English. Passing 
of this amnesty will result in Americans being murdered and 
subjected to other horrific crimes committed by the dangerous 
illegal aliens who would be permitted to legally remain in the 
United States.
    We know this to be true because such crimes directly 
resulted from the 1986 amnesty.
    This proposed amnesty is much larger and will cause crime 
on a much larger scale, yet that result is easily avoided if 
the House sticks to its guns and defeats S. 2611.
    As you pointed out a few moments ago, the 9/11 Commission 
itself reported how many people involved in terrorist acts--the 
1993 attack on the World Trade Center and the murders outside 
the CIA headquarters--were here thanks to the 1986 amnesty. It 
is interesting to note that the terrorist, Mir, the one who 
shot the people outside the CIA headquarters, had filed a 
fraudulent claim and his claim is being litigated on his behalf 
by Catholic Social Services.
    These are only a few of the long list of killers and would-
be killers that we know about who were permitted to remain in 
the U.S. thanks to the 1986 amnesty. And we know of them only 
because their crimes and conspiracies made the headlines. We 
can never know how many other illegal aliens received amnesty 
that later went on to commit horrible crimes, and we will never 
know because their ordinary street crimes did not get front 
page attention.
    Although we know that Americans were murdered and 
brutalized because of the 1986 amnesty, we don't know how large 
that number is. But since nearly one-third of Federal inmates 
are foreign born, we can be certain that the number of victims 
is quite large.
    In the 4.5 years I have given in support of efforts to 
secure our borders, I have heard from hundreds who have been 
the victims of crimes committed by illegals. Without exception, 
they know that these crimes occurred because our Government 
failed to live up to its most basic obligation to its citizens: 
To protect us from foreign attack.
    The 9/11 Commission staff put it in simple terms: 
``Terrorists cannot plan and carry out attacks in the United 
States if they are unable to enter the country.'' Yet with S. 
2611, the Senate pretends that 9/11 and thousands of other 
crimes never happened.
    In 2002, the first time I was invited to speak at a press 
conference for Members of Congress, I noted that independent 
polls consistently showed that over 70 percent of Americans 
want drastic immigration reform immediately. I said that this 
majority would soon waken to the fact that the big obstacles to 
secure borders were the Congress and President George W. Bush 
and his predecessor, Bill Clinton. I predicted that soon that 
majority would be fed up, turn on these politicians who have 
blocked the changes needed to protect another 9/11.
    Recent changes have shown that that prediction is accurate. 
In the last month, nearly half the States and many cities and 
towns have passed laws to fight illegal immigration and its 
damaging effects on their economies and society.
    Nevertheless, the U.S. Chamber of Commerce, La Raza, ACLU, 
the Catholic Church and the rest of the open borders lobby 
continue to show that for them the suffering and death endured 
by Americans is nothing but a cost of doing business, a cost of 
enlarging the membership. To its eternal shame, the Senate 
continues to do the bidding of that lobby and demands that our 
borders remain wide open to illegal aliens and the unknown 
criminals and terrorists among them.
    Last year, the House forced passage of the Real ID Act over 
the opposition of the open borders lobby in the Senate. Real ID 
will keep future terrorists from obtaining driver's licenses 
that were the critical tool for the mass murders of 9/11.
    Today, again, for the good of our country, the House must 
act in opposition to the Senate and defeat S. 2611.
    My son, James, was not a statistic; he was a human being 
trapped with hundreds of his co-workers on the top floors of 
the World Trade Center while the building beneath them, forcing 
them further and further up till they had no refuge. I love him 
today as much as I ever did. I miss him every second of every 
day. But I am just one of thousands who are forever deprived of 
the love and comfort of someone dear to them because Congress 
allowed illegal aliens to enter and remain in this country.
    And there are many thousands more who, although they have 
survived their attacks, their lives are ruined by violent 
sexual acts, beatings, stabbings and other crimes, causing 
permanent physical and psychological damage.
    How many more parents like me, how many children, siblings, 
husbands, wives of victims of illegal alien crime must you and 
the Congress hear from before you reject once and for all the 
demands of the open borders lobby?
    And, last, a plea to President Bush. Mr. Bush, shortly 
after 9/11, you stood on the ruins of the World Trade Center 
and since my son's remains have never been recovered, that is 
the only tomb he will ever know. Mr. Bush, you said, ``I hear 
you.'' Well, Mr. Bush, I don't think you did hear us, and the 
Senate hasn't heard us, and I think it is time you started to 
listen to us and enforce the laws of the United States and 
protect us from foreign invaders.
    Thank you very much.
    [The prepared statement of Mr. Gadiel follows:]

                   Prepared Statement of Peter Gadiel

    Mr. Chairman and members of the committee, thank you for the 
opportunity to speak on behalf of so many who have been the victims of 
crimes committed by illegal aliens; crimes that were made possible 
because our government failed to prevent terrorists and felons from 
crossing our Nation's borders. I am President of 9/11 Families for a 
Secure America (9/11FSA), an organization whose membership is comprised 
of family members of those killed in the terrorist attacks of September 
11, 2001. For obvious reasons our members strongly oppose S2611 because 
it would facilitate entry of terrorists into our country.
    We fully agree that S. 2611 would be an administrative and national 
security nightmare, but words such as ``administrative'' and ``national 
security'' are bloodless bureaucratic terms that fail to adequately 
describe the devastation amnesty inflicts on individual Americans. 
Speaking as the bereaved father of a young man killed by terrorists who 
were allowed into our country only because of the power and influence 
of the same Open Borders Lobby that is today promoting S. 2611, I will 
speak in plain English. Passing this amnesty will result in Americans 
being murdered, and subjected to other horrific crimes committed by the 
dangerous illegal aliens who would be permitted to legally remain in 
the United States. We know this to be true because this was the result 
of the 1986 amnesty. The amnesty proposed in S.2611 will be far larger 
than that of 1986, and thus will cause crime on a much larger scale. 
This is a disaster that can easily be avoided if the House sticks to 
its principles and defeats S.2611.
    In 1986, Senator Edward Kennedy, then-Representative Charles 
Schumer, and other sponsors of amnesty claimed that `only' one million 
illegal aliens would be eligible for amnesty. In fact, due to fraud in 
administration, and underestimation of the number of illegals in the 
United States, over three million illegals were actually granted 
amnesty.
    The investment firm of Morgan Stanley recently estimated that there 
are over 20 million illegals in the United States. Yet, at a recent 
meeting with DHS officials, 9/11 FSA Vice-President Bruce DeCell and I 
were told that Administration statisticians had ``worked the numbers'' 
and ``only seven million'' illegals would apply. That is approximately 
one third the Morgan Stanley estimate, oddly enough, the same fraction 
used by sponsors of the amnesty of 1986. The track record of the 
promoters of the 1986 amnesty in predicting the number of illegals who 
would be eligible tends to confirm what appears to be common knowledge 
to nearly everyone in the country today: the 20 million figure is 
closer to the mark.
    In 1986, sponsors of amnesty also assured us there would be 
safeguards to screen out those who were a danger to our country. Their 
failure to honor that promise is as clear as their inability to predict 
eligibility numbers.
    The 9/11 Commission itself showed us that the 1986 amnesty resulted 
in dead and injured Americans. It noted that two of the conspirators 
(Mohammed Salameh and Mahmud Abouhalima, aka Mahmud the Red) in the 
1993 attack on the World Trader Center were illegal aliens permitted to 
remain in the US because of the 1986 amnesty. A third plotter (Mohammed 
Abouhalima, aka Abo Halima) was permitted to stay in the US for six 
years until just before the attack when his application under the '86 
amnesty was finally denied. Despite the denial he remained in the US to 
help carry out the plot he had helped plan during the period he was 
``legal.''
    Mir Aimal Kansi who shot five people outside CIA headquarters was 
an illegal alien also permitted to remain in the US thanks to the 1986 
amnesty law. At the time of his 1993 attack his fraudulent claim was 
still being litigated by Catholic Social Services.
    Former 9/11 Commission staff member, Janice Kephart, has documented 
a large list of foreign terrorists and their methods of entering the 
United States and embedding themselves here. (Her 2005 paper, 
Immigration and Terrorism, Moving Beyond the 9/11 Staff report on 
Terrorist Travel is available on the World Wide Web at http://
www.cis.org/articles/2005/kephart.html)
    Obviously, Ms. Kephart's list of terrorists and would-be terrorists 
includes only those who have been uncovered by law enforcement. Their 
involvement in terrorist activities resulted in the research which 
disclosed their grants of amnesty under the 1986 legislation. The FBI 
has stated that there are sleeper agents in the United States and of 
course since we do not know who they are we cannot know how many of 
them have been granted full access to our society through amnesty.
    In addition, we can never know many other illegal aliens received 
amnesty and later went on to commit `ordinary' violent street crimes 
which did not, because of the lack of a terrorist connection, result in 
exposure of their link to the 1986 amnesty.
    We know that Americans were murdered and brutalized because of the 
1986 amnesty. Although we don't know how large that number is, since 
nearly 1/3 of federal inmates are foreign born, we can be certain that 
the number of victims is very considerable. Because the agencies that 
will be assigned responsibility for screening applicants will not be 
able to do meaningful background checks on the 20 million illegals who 
would apply for amnesty under S. 2611, the opportunities for terrorists 
and `ordinary' street criminals, are obvious.
    In the four and a half years I've given in support of efforts to 
secure our borders, I have heard from hundreds who have been the 
victims of crimes committed by illegals. Without exception they know 
these crimes occurred because our government failed to live up to its 
most basic obligation to its citizens . . . to protect us from foreign 
attack. The 9/11 Commission staff put it in simple terms: ``terrorists 
cannot plan and carry out attacks in the United States if they are 
unable to enter the country.'' Yet, with S.2611 the Senate pretends 
that 9/11 and thousands of other crimes never happened.
    In 2002, the first time I spoke at a Congressional press conference 
I noted that independent polls consistently show 70% to 90% of 
Americans want drastic immigration reform immediately and that this 
majority would soon awaken to the fact that the biggest obstacles to 
secure borders were the Congress and Presidents George W. Bush and Bill 
Clinton. I predicted that soon this majority would be fed up and turn 
on those politicians who have blocked the changes needed to prevent 
another 9/11. Recent events have shown that prediction to be accurate, 
for in the past few months, nearly half the States and many cities and 
towns have passed laws to fight illegal immigration and its damaging 
effects on their economies and society. They have left the Congress in 
the dust while they act to preserve themselves.
    Among the municipalities that have enacted legislation or policies 
to discourage illegal immigrants from remaining in their jurisdictions 
are: Suffolk County, N.Y., Avon Park, FL, Herndon, VA, Sandwich Mass., 
Maricopa County, AZ, Butler County, OH, Danbury CT, Lima, OH., 
Hazleton, PA,
    States that have acted are: Alabama, Arizona, Arkansas, California, 
Colorado, Connecticut, Delaware, Florida, Georgia, Idaho, Illinois, 
Kansas, Kentucky, Louisiana, Maine, Maryland, Massachusetts, Minnesota 
Missouri, Montana, Nebraska, New Hampshire, New Jersey, New Mexico, New 
York, North Carolina, Oklahoma, Rhode Island, South Dakota, Tennessee, 
Texas, Virginia, Wisconsin, and Wyoming,
    These actions have taken place despite well funded and coordinated 
opposition to any restrictions on illegal aliens by Catholic Charities, 
ACLU, LaRaza (the Race), Maldef, LULAC, US Chamber of Commerce, 
agribusiness, the travel industry, etc. It must be noted, for example 
that Catholic Charities, which receives 60% of its budget from 
governmental sources is among the most pervasive of open borders 
lobbying groups. 9/11 FSA members have encountered Catholic Charities 
lobbyists active in the following issues in state legislatures: for 
legislation to grant drivers licenses to illegals, against legislation 
to make engaging in human trafficking a crime; for instate college 
tuition rates for illegal aliens.
    In addition, the Mexican government, through its forty eight 
consulates and in violation of treaty obligations, lobbies city, county 
and state law making bodies throughout the nation in opposition to any 
legislation that would impede illegal immigration.
    For these, the constituent members of the Open Borders Lobby, the 
suffering and death endured by Americans as a result of illegal 
immigration is just a cost of doing business. To its eternal shame, the 
Senate continues to do the bidding of that lobby, demanding that our 
borders remain wide open to illegal aliens and the criminals and 
terrorists among them. S.2611 exemplifies the Senate's mindless support 
of that destructive policy
    Last year, the House forced passage of the REAL ID Act despite 
intense opposition from the Open Borders Lobby and the Senate. REAL ID 
will keep future terrorists from obtaining the drivers licenses that 
were critical to carrying out the mass murders of 9/11. Today again, 
for the good of our country, the House must act in opposition to the 
Senate and defeat S.2611
    My son, James, was not a statistic. He was a human being. I loved 
him and I love him now as much as ever. I miss him every second of 
every day. There are many thousands more like me, who are forever 
deprived of the love and comfort of someone dear to them because 
Congress allowed illegal aliens to enter and remain in this country. 
And there are many thousands more whose lives are ruined by violent 
sexual acts, beatings, stabbings and other crimes causing permanent 
physical and psychological devastation.
    How many more parents like me, and children, siblings, husbands and 
wives of victims of illegal alien crime must you in the Congress hear 
from before you reject once and for all the demands of the Open Borders 
Lobby.
    Shortly after 9/11, Pres. Bush stood on the ruins of the World 
Trade Center, and because none of his remains have ever been found that 
was the only tomb my son will ever know. The President said: ``I hear 
you.'' I believe he and the Senate did not hear us. I believe it is 
time he, and they, started.

    Mr. Hostettler. Thank you, Mr. Gadiel.
    Mr. Maxwell.

   TESTIMONY OF MICHAEL MAXWELL, FORMER DIRECTOR, OFFICE OF 
  SECURITY AND INVESTIGATIONS, UNITED STATES CITIZENSHIP AND 
                      IMMIGRATION SERVICES

    Mr. Maxwell. Mr. Chairman, Members of the Subcommittee, I 
am pleased to be here today to discuss the impact and 
implementation of S. 2611 by USCIS would have on national 
security.
    As a former director of the Office of Security and 
Investigations, the only law enforcement component within 
USCIS, I must point out that the basic premise of this hearing 
and implementation of 2611 could create an administrative and 
national security nightmare that is faulty.
    The fact is an administrative and national security 
nightmare already exists at USCIS under our current immigration 
policy.
    Asking USCIS to implement a proposal as sweeping as 2611 
without first addressing existing national security 
vulnerabilities in our immigration system would be 
irresponsible at best and could actually facilitate ongoing 
criminal enterprises.
    I therefore agree with Director Gonzalez who said just this 
past Monday, at a naturalization ceremony in New Jersey, ``If 
we had to institute a guest worker program today, then the 
system couldn't handle it.''
    I would go one step further, however, and suggest that 
USCIS could never implement 2611 without compromising this 
nation's security. The integrity of the underlying immigration 
system is simply too flawed.
    Three overarching issues must, in my professional view, be 
addressed before any policy reform can be effective. The first 
is rampant corruption. When I last briefed this Subcommittee, 
the Office of Security and Investigations had a backlog of over 
2,000 complaints against USCIS employees. Included among these 
were national security cases. I had no case management system 
and a grand total of four criminal investigators in the field.
    Today, almost a year later, the backlog is well over 3,000 
complaints. New complaints are still coming in at a rate of 
around 50 per week. OSI still has a grand total of four 
criminal investigators in the field and no case management 
system.
    Despite four arrests and two convictions of USCIS employees 
in the past few months alone on charges including soliciting 
sex for citizenship, selling $1 million worth of green cards in 
a money laundering scheme, falsifying immigration documents and 
embezzlement, USCIS management continues, in writing, to insist 
that sufficient safeguards are built into the system to prevent 
immigration officers from illegally granting the benefits of 
their choosing, to the person of their choosing, at the time of 
their choosing, for the reason of their choosing.
    The second issue is a prevailing customer service mentality 
that prioritizes reducing backlogs and moving benefits above 
all else. For example, USCIS has created an auto-adjudication 
system that can apparently process applications for work 
permits from start to finish without any employee actually 
examining the supporting documentation for signs of fraud. The 
system bypasses all but the initial IDA, security name check 
and therefore searches only the printed name of the applicant 
and not any spelling variation or aliases--hardly effective.
    With a work permit in hand, an alien can obtain a Social 
Security number and, even under the Real ID Act, a driver's 
license, then open a bank account, perhaps obtain a fire arms 
license, board an aircraft, et cetera.
    USCIS personnel, without the knowledge of the USCIS or DHS 
chief information officers, developed a computer system, 
embedded it into the DHS IT backbone, allowing for remote users 
to manually insert immigration files into the USCIS database in 
such a manner so that all security background checks were 
circumvented and immigration benefits were granted to aliens of 
their choosing.
    Following an initial report from IT security staff, senior 
USCIS leadership quashed any further investigation, including 
criminal investigation, of the system and took actions to cover 
up its existence. It should be noted that official USCIS 
documents revealed this program was not a law enforcement 
program.
    As of March 10, 2006, the USCIS headquarters Asylum 
Division had a backlog of 515 asylum cases involving applicants 
residing in the United States who have provided material 
support to a terrorist or terrorist organization. Their cases 
are on hold to give DHS time to develop procedures for 
considering whether the secretary of Homeland Security should 
exercise discretion to grant them a waiver of inadmissibility 
so they can stay permanently in the United States despite their 
terrorist ties.
    The third issue is the ongoing failure to share critical 
law enforcement information within DHS or between DHS and other 
agencies. As of August 2005, some 1,400 immigration 
applications that had generated national security hits on IBIS 
were sitting in limbo at USCIS headquarters because the 
adjudicators trying to process them were unable to obtain the 
national security information that caused them to be flagged 
from other agencies.
    As of late September 2005, USCIS had a total backlog of 
more than 41,000 applications with IBIS hits, requiring further 
investigation. Because USCIS is not a law enforcement, the FBI 
does not permit USCIS personnel to conduct name checks on 
immigration applicants and as of May 2006, the FBI name check 
backlog had grown to almost 236,000.
    As non law enforcement personnel, USCIS adjudicators are 
prohibited from routinely running criminal history checks on 
applicants.
    In closing, Mr. Chairman, on June 20, Karl Rove told the 
National Federation of Independent Business, ``Immigration is 
turning into a big problem. The more you look at it, the more 
clearer it is that every single part of the system is broken.''
    In medical parlance, we must stop the hemorrhage before we 
can treat the underlying condition. The proposed Senate bill 
and its associated timeline would overwhelm an already 
overburdened USCIS and put this nation at great peril.
    Thank you, Mr. Chairman, Members of the Subcommittee. With 
that, I will be happy to answer any questions.
    [The prepared statement of Mr. Maxwell follows:]

                Prepared Statement of Michael J. Maxwell

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Mr. Hostettler. Thank you, Mr. Maxwell.
    Mr. Cutler, you are recognized.

 TESTIMONY OF MICHAEL CUTLER, FORMER EXAMINER, INSPECTOR, AND 
     SPECIAL AGENT, IMMIGRATION AND NATURALIZATION SERVICE

    Mr. Cutler. Thank you, Mr. Chairman.
    Chairman Hostettler, Ranking Member Jackson Lee, Members of 
the Subcommittee, ladies and gentlemen, it is an honor to come 
before this Subcommittee hearing to offer testimony on an issue 
that is one of the most challenging and important issues our 
nation faces today.
    I commend Chairman Hostettler and Members of this 
Subcommittee for demonstrating true leadership at a time that 
our nation is in need of true leadership.
    The principle by which most responsible and sensible people 
live their lives could be summed up by the phrase, ``Safety 
first.'' Yet this fundamental and common sense approach is 
clearly lacking among all too many of the senators of our 
nation. They voted for a bill that utterly ignores the findings 
and recommendations of the 9/11 Commission at a time when our 
nation is threatened by acts of terrorism.
    Nearly every week we read news accounts of suspected 
terrorists being arrested in countries around the world as well 
as within the borders of our own country. We see compelling 
coverage of bombings of trains in Spain, England and most 
recently India. One of this country's closest allies, Israel, 
has been forced to take military action to defend itself 
against terrorism in the Middle East, and yet inexplicably 
there are senators and others, including the president of the 
United States who insist on pushing forward to implement the 
GuestWorker Amnesty Program that would be utterly disastrous 
for national security.
    USCIS is unable to cope with all of its responsibilities as 
we speak. The GAO issued a report in March of this year that 
makes it clear that USCIS is unable to carry out its vital 
missions today without the added burden that the GuestWorker 
Amnesty Program would undeniably bring to bear against that 
overworked, underfunded and, in general, inept agency.
    I would recommend a copy of this report be reviewed by the 
Members, not only of this Subcommittee but by all members of 
our Government who favor a GuestWorker Amnesty Program.
    Mr. Hostettler. Mr. Cutler, if I could just interrupt. 
Without objection----
    Mr. Cutler. Sure.
    Mr. Hostettler. I will submit into the record the March 
2006 report that you reference, ``Immigration Benefits: 
Additional Controls and a Sanction Strategy Could Enhance DHS' 
Ability to Control Benefit Fraud.'' Thank you.
    [The report follows in the Appendix]
    Mr. Cutler. That is the report, and I appreciate that you 
do that.
    Thank you, Mr. Chairman. Sure.
    My fear is that because we are dealing with millions of 
illegal aliens who, in the parlance of the open borders 
advocates, are undocumented that means they have no verifiable 
means of proving their true identities. This means that if the 
program were to be enacted under S. 2611 that it will be a 
simple matter for illegal aliens, including terrorists or 
criminals, to walk into an immigration office, along with 
millions of other illegal aliens, and produce a false name and 
then get an official identity document from our Government 
bureaucrats.
    These documents would then enable them to circumvent the 
various no-fly and terror watch lists. They would be able to 
use these documents as breeder documents, get driver's 
licenses, Social Security cards, open bank accounts, even 
library cards, all the while staying under the radar and 
obscuring and concealing their true identity, and all of this 
at a time when the citizens of our country have witnessed an 
erosion of many of the freedoms that we have come to take for 
granted in the name of national security.
    I have heard the President often state that if our nation 
allowed aliens who simply wanted to work to do so, that law 
enforcement could then focus on the terrorists. I have to 
respectfully disagree with this optimistic but extremely naive 
assessment.
    Awhile back, Robert Mueller, the director of the FBI, 
testified before the Senate Intelligence Committee about his 
concerns about so-called sleeper agents. As you know, a sleeper 
agent is a terrorist, spy or enemy combatant who one way or 
another succeeds in gaining entry into the United States to 
carry out an attack or other hostile act against our country.
    But while awaiting his instructions, however, such 
individuals do whatever they have to do to not call attention 
to themselves. Many, as we have seen, get low-profile [jobs], 
such as driving an ice cream truck, a taxicab, work in a used 
car lot, or attend school. Often the job that they take 
provides them with mobility to move freely among us as they 
conduct clandestine meetings, surveillance or other preparatory 
functions till the day that they are called into action.
    A few days before a terrorist carries out an attack, he is 
in fact likely to hide in plain sight by going to his job. If 
our Government makes it that much easier for a terrorist to 
legally get a job under an assumed identity, then Al Qaida 
should give the people in our Government who make this possible 
the MVP award.
    The GuestWorker Amnesty Program will undoubtedly entice 
ever-increasing numbers of illegal aliens to head for our 
country, because this program will convince people throughout 
the world that in the United States not only will you be 
permitted to break the law and get away with it, but that we 
are actually willing to reward you for breaking the law by even 
providing you with Social Security benefits when you commit 
identity theft and use somebody else's Social Security number, 
even as law enforcement agencies across our country are 
increasingly turning to asset forfeiture strategies to combat a 
wide variety of crimes on the city, State and Federal level.
    Moreover, there is no door that could be shut so there is 
no way to keep the millions more illegal aliens from gaining 
access to our country. The confidentiality provisions would 
also hobble efforts by law enforcement officials to make 
certain that criminal and terrorist aliens have their 
applications properly scrutinized, inviting more fraud.
    The avalanche of applications will further erode any effort 
to restore integrity to the benefit system, meaning that fraud 
will become even more attractive to criminal and terrorist 
aliens, furthering encouraging more of them to seek to enter 
the United States, making it easier for them to game the 
system, and then we wind up with a vicious cycle where we have 
more aliens filing more applications, and quality will continue 
to erode as more applications are filed.
    And, meanwhile, decent people who file applications for 
benefits will be put on the back of this line because the 
overflowing system won't be able to deal with their 
applications. That was one of the lessons of the 1986 amnesty, 
in fact.
    Additionally, a meaningful effort needs to be made, not 
only to deny applications where fraud is involved but to 
prosecute people who become involved in fraud and to remove 
aliens who are identified as being the beneficiaries of fraud 
applications. Right now they file an application with little 
fear of either criminal charges being brought or administrative 
deportation actions being initiated.
    So if you consider all of this and you realize that the 
bill of 1986 is essentially a reworked version that we are 
looking at now, it makes no sense to continue along this path. 
S. 2611, at a time that we are in now, facing terrorism, facing 
growing problems with narcotics and gang activities in the 
United States, makes no sense, and any kind of amnesty program 
must not be considered at this time.
    I look forward to your questions.
    [The prepared statement of Mr. Cutler follows:]

                Prepared Statement of Michael W. Cutler

    Chairman Hostettler, Ranking Member Jackson Lee, members of the 
subcommittee, ladies and gentlemen, it is an honor to come before this 
subcommittee hearing to offer testimony on an issue is that one of the 
most challenging and important issues our nation faces today. I commend 
Chairman Hostettler and members of this subcommittee for demonstrating 
true leadership at a time when our nation is in need of true 
leadership.
    The principle by which most responsible and sensible people live 
their lives can be summed up by the phrase, ``Safety first.'' We 
instill this principle in our children as soon as they are old enough 
to understand the words. Yet, this fundamental and commonsense approach 
is clearly lacking among all too many of the senators of our nation. 
They voted for a bill that utterly ignores the findings and 
recommendations of the 911 Commission at a time when our nation is 
threatened by acts of terrorism. Nearly every week we read news 
accounts of suspected terrorists being arrested in countries around the 
world as well as within the borders of our own country. We see 
compelling coverage of bombings of trains in Spain, England and India, 
most recently. One of this country's closest allies, Israel, has been 
forced to take military action to defend itself against terrorism in 
the Middle East. Yet inexplicably, there are senators and others who 
insist on pushing forward to implement a guest worker amnesty program 
that would be utterly disastrous for national security.
    USCIS, United States Citizenship and Immigration Services, the 
agency that would be responsible for administering the proposed guest 
worker amnesty program, is unable to cope with all of its 
responsibilities as we speak. The GAO issued a report in March of this 
year, makes it clear that USCIS is unable to carry out its vital 
missions today, without the added burden that the guest worker amnesty 
program would undeniably bring to bear against that overworked, under 
funded and in general, inept agency. The report is entitled, 
``Immigration Benefits: Additional Controls and a Sanctions Strategy 
Could Enhance DHS's Ability to Control Benefit Fraud'' and can be found 
at the following link:

        http://judiciary.house.gov/media/pdfs/gaoimmbenefits31006.pdf

    I would recommend that a copy of this report be reviewed by the 
members of not only this subcommittee, but by all members of our 
government who favor a guest worker amnesty program.
    My fear is that because we are dealing with millions of illegal 
aliens who, in the parlance of the open borders advocates, are 
undocumented, have no verifiable means of proving their true 
identities. This means that if this program were enacted, these 
millions of illegal aliens would be able to go to an immigration 
office, assume any identity they found convenient and receive official 
identity documents from our government. It would be a simple matter for 
a terrorist or criminal, to walk into such an office, provide a false 
name to the over-worked bureaucrat at USCIS who will probably be given 
only a minute or two at most to interview each applicant. The terrorist 
would then receive a guest-worker identity document in that new 
identity that would permit him to circumvent the various terrorist 
watch lists or so called, ``No fly'' lists and thereby embed himself in 
our country and gain access to what are supposed to be secure venues. 
Undoubtedly, these identity documents will become the most valued 
breeder document enabling the bearer to receive driver's licenses, 
credit cards, Social Security numbers and even library cards in a false 
name, completing the process of creating new false identities at grave 
risk to national security, at a time that the citizens of our country 
have witnessed an erosion of many of the freedoms we have come to take 
for granted.
    I have heard the President often state that if our nation allowed 
aliens who simply wanted to work, to do so, that law enforcement could 
then focus on the terrorists. I have to respectfully disagree with this 
optimistic but extremely naive assessment. Awhile back, Robert S. 
Mueller, the Director of the FBI testified before the Senate 
Intelligence Committee about his concerns about so-called ``sleeper'' 
agents. As you know, a sleeper agent is a terrorist, spy or enemy 
combatant, who one way or the other succeeds in gaining entry into our 
country awaiting instructions to carry out a terrorist attack or other 
hostile act against our country. While awaiting his instructions, such 
individuals do whatever they have to do in order to not call attention 
to themselves. Many, as we have seen, get a low-profile job such as 
driving an ice cream truck or a taxi cab, work at a used car lot or 
attend school. Often the job they take provides them with the mobility 
to move freely among us as they conduct clandestine meetings, 
surveillance or other preparatory functions for the day they are called 
into action. A few days before a terrorist carries out an attack he is, 
in fact, likely to hide in plain sight by going to his job.
    If our government makes it that much easier for a terrorist to 
legally get a job under an assumed identity, then Al Qaeda should give 
the people in our government who make this possible, the ``MVP Award.'' 
When we see commercials on television or ads in the newspapers for 
various goods or services, the ad usually concludes with a disclaimer 
by the provider of that product or service that details the potential 
negative impact that the product may have on the consumer. With all of 
the high-pressure sales pitches we have been bombarded with by members 
of the United States Senate in attempting to sell their bill, S. 2611, 
they have neglected to provide a disclaimer, so I will do it for them.
    If we provide illegal aliens with guest worker amnesty that 
differentiates how we treat aliens based on how long they have been 
here, it will be virtually impossible to make certain that this, along 
with all of the other provisions, will have integrity, just as it will 
be impossible to make certain that many more illegal aliens don't run 
our borders, stow away on ships or gain entry through ports of entry, 
claiming that they have been here for the 5 years that would virtually 
provide them with the ``keys to the kingdom.'' There would be no way to 
force these millions of illegal aliens to leave our country because we 
cannot enforce their departure today. The guest worker amnesty program 
will undoubtedly entice ever increasing numbers of illegal aliens to 
head for our country because this program will convince people 
throughout the world that in the United States, not only will you be 
permitted to break the law and get away with it, we are willing to 
reward you for breaking the law by even providing you with Social 
Security benefits if you commit identity theft and work, or claim to 
have worked, under someone else's Social Security number, even as law 
enforcement agencies across our nation are increasingly turning to 
asset forfeiture strategies to combat a wide variety of crimes on the 
city, state and federal level. Moreover, there is no door that can be 
shut, so there is no way to keep millions of more illegal aliens from 
gaining access to our country. The confidentiality provisions would 
also hobble efforts by law enforcement officials to make certain that 
criminal and terrorist aliens have their applications properly 
scrutinized. The avalanche of applications will further erode any 
effort to restore integrity to the benefits system meaning that fraud 
will become even more attractive to criminal and terrorist aliens, 
further encouraging more of them to seek to enter the United States and 
making it easier for them to game the system to enable them to embed 
themselves within our country and hide in plain sight. As it is, each 
year the director of USCIS and his subordinates promise to reduce the 
backlog of pending applications for a wide variety of immigration 
benefits including the granting of resident alien status and the 
conferring of United States citizenship upon aliens. It is common 
knowledge that there is an inverse proportion between quantity and 
quality. The more work you try to do in a limited period of time, the 
more that the quality of the work you are doing suffers. By having 
USCIS make the reduction of the backlog of pending applications the 
priority, more fraud escapes detection. Consequently more aliens get 
away with committing fraud, emboldening still more aliens to file more 
fraudulent applications for benefits, further eroding any efforts at 
quality control and fraud detection. This creates an ever-increasing 
backlog and an ever-increasing spiral of fraud. In order to break this 
dangerous cycle, we need to establish a clear priority of combating 
fraud where those who perpetrate fraud can expect that they may well be 
discovered and prosecuted. Additionally, a meaningful effort needs to 
be made to locate, arrest and deport alien beneficiaries of fraudulent 
applications.
    Because of the current pressure to move the applications, much of 
the fraud escapes detection and only a relatively infinitesimal number 
of aliens are ever prosecuted or deported because they were involved in 
immigration benefit fraud. A guest worker amnesty program that has the 
potential of dumping millions of more applications into the hopper at 
USCIS would be absolutely disastrous for any effort at combating 
immigration benefit fraud and restoring even a modicum of integrity to 
the immigration system and would fly in the face of recommendations of 
the 911 Commission.
    As all of this is going on, our valiant soldiers are fighting in 
far off lands to help protect our nation against terrorists while some 
of our politicians at home are seemingly unwilling to secure our nation 
against the scourge of terrorism in the name of free trade and a desire 
to keep our nation's borders wide open. They use deceptive language to 
obfuscate the issue and, quite frankly so has the President of the 
United States. I have often heard the President say that he wanted to 
legalize immigrants. I am, as you know, a former INS special agent. 
This combination of words, ``legalizing immigrants,'' has confounded 
me. Language is important and so I think it is important to make this 
point. To offer to make immigrants legal is about as meaningful as 
offering to make water wet. Water is wet and immigrants, by legal 
definition, are already legal. In fact, an immigrant is defined as an 
alien who has been lawfully admitted for permanent residence. An 
immigrant has a so-called ``green card'' and is able to travel freely 
around our country and across our nation's borders. An Immigrant has 
the right to work at any job he is qualified to do. An immigrant has 
the right to petition the government to have his spouse join him in the 
United States as an immigrant and may also do this for his (her) minor 
children. Indeed, an immigrant is on the path to United States 
citizenship. How much more legal would the President want to make an 
immigrant?
    I believe that just as the members of the Senate who voted for S. 
2611 and other pro illegal alien advocates are not likely to provide a 
disclaimer for their remedy to the immigration crisis confronting our 
nation today, this improper and misleading use of the term immigrant 
falls under the heading of ``deceptive business practices.'' By 
eliminating the distinction between illegal aliens and immigrants, it 
becomes a simple matter to keep hammering away at the concept that 
America is the land of immigrants and that immigrants have made 
immeasurable contributions to our nation over the years. I am a strong 
advocate for the recognition of the contributions of immigrants to our 
nation, indeed, I am the son of an immigrant; however, there is a world 
of difference between an immigrant and an illegal alien.
    There is scant difference between the bill the Senate recently 
passed and the disastrous Amnesty of 1986, notwithstanding the 
protestations of the members of the Senate who would take issue with my 
position. But, if they do not want to learn the lesson of relatively 
recent history where the Amnesty of 1986 is concerned, then I would 
recommend that they study much more distant history and study the 
strategy behind the ``Trojan Horse.'' Only a fool would permit 
strangers into his home without knowing their true identity or purpose 
for seeking to enter. Yet, this is precisely what S. 2611 facilitates. 
In these perilous times, this is not acceptable and must not be 
allowed.
    In support of my concerns about the failings of USCIS I 
respectfully request that a copy of the GAO report I cited previously 
be attached to this testimony along with a press release prepared by 
USCIS dated June 29, 2006, entitled, ``A Day in the Life of USCIS'' 
that details the myriad tasks that are performed on a daily basis now, 
before they might have to deal with the onslaught of millions of 
amnesty applications that the Senate bill would cause. I have attached 
a copy of that press release to my prepared testimony and believe it 
provides ample evidence of just how USCIS is over-extended, even 
without the guest worker amnesty program it would be mandated to 
administer under the provisions of S. 2611. It may be found at the 
following website:

        http://judiciary.house.gov/media/pdfs/gaoimmbenefits31006.pdf

    Simply stated, a guest worker amnesty program would not only 
attract even more illegal aliens into our country enabling terrorists 
and criminals to more easily blend into our country, it would also 
provide unknown aliens with official identity documents in assumed 
identities that would enable the terrorists and criminals with an easy 
means of creating new identities they could use to travel freely across 
our borders, around our nation and gain access to secure venues and 
embed themselves in our country. This would, I fear, create a grave 
risk to our nation's security.
    I look forward to your questions.

    Mr. Hostettler. Thank you, Mr. Cutler.
    Bishop DiMarzio, you are recognized.

       TESTIMONY OF NICHOLAS DiMARZIO, BISHOP OF BROOKLYN

    Bishop DiMarzio. Thank you, Mr. Chairman and Members, for 
this opportunity to testify today.
    I have to disagree with one of my former panelists, because 
I don't think the Catholic Church is part of the open border 
lobby. I do agree with another who said that we already have a 
nightmare here, a security nightmare, because we have an untold 
number of undocumented aliens in this country. That is a grave 
security problem.
    The Catholic Church has long experience in working with 
immigrant populations. In our Catholic Legal Immigration 
Network, we have 158 agencies that do offer legal services. 
They are all BIA accredited. And so we, too, wish to make 
people legal in this country, and we respect the immigration 
laws, and we also respect the right of nations to protect their 
borders.
    There is no question that we have not done a good of 
protecting our borders, but I would contend that the problem, 
as well as being a border issue, is a labor market issue. The 
problem is in the labor market as much as it is at the border.
    We need to deal with it in a comprehensive way to deal with 
all of the issues so that we can have security. It is obviously 
our goal, and background checks, as we have heard already, are 
critical. I think with the new information technology we have, 
if we have a will to find a way to make background checks 
better, I am sure we can do that.
    We must be sure also to give adequate resources to 
implement the program. In the last amnesty, of which I think I 
am a survivor, I was here in 1986, worked with Congress, was 
running the Catholic Church's implementation program, we needed 
to have perhaps a better relationship with the Immigration 
Service at the time.
    I hope that USCIS in this time, if we are able to bring 
some program of legalization around, will have a better 
relationship with us called, the qualified designated agencies, 
which helped the Immigration Service at that time to process 
all these applications.
    Obviously, fraud is a major concern. The Catholic Church 
does not stand for fraud. We, in our application process, made 
very effort to make sure that any application process by us was 
certainly legal and had the proper documentation. That is where 
the qualified entities can be of great assistance to the 
Immigration Service in doing that work.
    I think also, as we look to the--there are certain 
qualifications that we need in a program as we are finding it. 
In order to deal with the security issue, we have to be in a 
comprehensive approach to dealing with all of the factors that 
influence undocumented immigration.
    I just finished a term as the commissioner for the Global 
Commission International Migration, a U.N.-inspired body, that 
will bring its report to the United Nations this September. 
What is clear in the many hearings we had around the world that 
undocumented migration is an international problem.
    But only with international cooperation can we ever hope to 
resolve this problem. We need to work with the nations from 
which these people come to deal with the issue in an upfront 
and enlightened manner so that we can stem the flow of 
unregulated migration, which is good neither for the people nor 
for the countries from which they come or to which they come. 
We are clear that that is our policy.
    I think also we need to look at the opportunities that this 
presents. This program characterizes that amnesty is probably 
more a legalization program. There are rather onerous burdens 
that have to be passed in order for this to happen. I urge the 
House to work with the Senate to improve the bill so that it is 
something that is comprehensive, something that will aim at 
security, which is a paramount question in our society today so 
that we can have an immigration system that works.
    We need immigrants in our country. It seems our labor 
market needs them, but we have to find a way we can bring them 
here legally without any of the external problems that have 
plagued us in the past. If the law is broken, we must fix it. 
And, certainly, when we fix it, we must do it in the right way, 
and I am sure that with the expertise of Congress that this can 
be done.
    So thank you for this opportunity to speak today.
    [The prepared statement of Bishop DiMarzio follows:]
         Prepared Statement of Most Reverend Nicholas DiMarzio
    I am Bishop Nicholas DiMarzio, bishop of Brooklyn, chairman of the 
Catholic Legal Immigration Network, Inc. (CLINIC), and a consultant to 
the U.S. Conference of Catholic Bishops' (USCCB) Committee on 
Migration. I would like to thank subcommittee Chairman John Hostetler 
(R-IN) and Ranking Member Sheila Jackson Lee (D-TX) for having me today 
to testify before the subcommittee.
    Today, I would like to concentrate my testimony in the following 
areas:

        <bullet>  elements necessary to correct inefficiencies which 
        occurred in implementing the 1986 Immigration Reform and 
        Control Act (IRCA)--the last legalization program--and to 
        ensure efficient processing of applications for any 
        legalization enacted this year;

        <bullet>  the value of a comprehensive approach to immigration 
        reform as an antidote to the immigration crisis we face in our 
        country today, including how such an approach is consistent 
        with, and beneficial to, national security goals; and

        <bullet>  elements of H.R. 4437 which we find problematic 
        because they harm legal immigrants, refugees, and asylum-
        seekers.
         the role of the catholic church in immigration reform
    The Catholic Church has a long history of involvement in the 
immigration issue, both in the advocacy arena and in welcoming and 
assimilating waves of immigrants and refugees who have helped build our 
nation throughout her history. Many Catholic immigration programs were 
involved in the implementation of IRCA in the 1980s and continue to 
work with immigrants today. In fact, the U.S. Conference of Catholic 
Bishops (USCCB) was a national coordinating agency for the 
implementation of IRCA. We have a strong working relationship with the 
Department of Homeland Security (DHS) and with U.S. Citizenship and 
Immigration Services (USCIS), the agency that would be largely 
responsible for implementing any new legalization and temporary worker 
programs. There are currently 158 Catholic immigration programs 
throughout the country under the auspices of the U.S. bishops.
    Our experience in working with immigrants throughout the years 
compels us to speak out on the issue of immigration reform, which we 
believe is a moral issue which impacts the human rights and human life 
of the person. The Church's work in assisting migrants stems from the 
belief that every person is created in God's image. In the Old 
Testament, God calls upon his people to care for the alien because of 
their own alien experience; ``So, you, too, must befriend the alien, 
for you were once aliens yourselves in the land of Egypt'' (Deut. 
10:17-19). In the New Testament, the image of the migrants is grounded 
in the life and teachings of Jesus Christ. In his own life and work, 
Jesus identified himself with newcomers and with other marginalized 
persons in a special way; ``I was a stranger and you welcomed me'' (Mt. 
25:35). Jesus himself was an itinerant preacher without a home of his 
own as well as a refugee fleeing the terror of Herod. (Mt. 2:15).
    In modern times, popes over the last hundred years have developed 
the Church's teaching on migration. Pope Pius XII reaffirmed the 
Church's commitment to caring for pilgrims, aliens, exiles, and 
migrants of every kind, affirming that all people have the right to 
conditions worthy of human life and, if these conditions are not 
present, the right to migrate.\1\ Pope John Paul II stated that there 
is a need to balance the rights of nations to control their borders 
with basic human rights, including the right to work; ``Interdependence 
must be transformed into solidarity based upon the principle that the 
goods of creation are meant for all.'' \2\ In his pastoral statement, 
Ecclesia in America, John Paul II reaffirmed the rights of migrants and 
their families and the need for respecting human dignity, ``even in 
cases of unauthorized migration.'' \3\
---------------------------------------------------------------------------
    \1\ Pope Pius XII, Exsul Familia (On the Spiritual Care of 
Migrants) September, 1952.
    \2\ Pope John Paul II, Sollicitudo Rel Socialis (On Social Concern) 
No. 39.
    \3\ Pope John Paul II, Ecclesia in America (The Church in America) 
January 22, 1999, No. 65.
---------------------------------------------------------------------------
    In an address to the faithful on June 5, 2005, His Holiness Pope 
Benedict XVI referenced migration and migrant families; ``. . . my 
thoughts go to those who are far from their homeland and often also 
from their families; I hope that they will always meet receptive 
friends and hearts on their path who are capable of supporting them in 
the difficulties of the day.''
    In the pastoral letter Strangers No Longer: Together on the Journey 
of Hope, the United States and Mexican bishops point out why we speak 
on the migration issue; ``As pastors, we witness the consequences of a 
failed system every day in the eyes of migrants who come to our parish 
doors in search of assistance. We are shepherds to communities, both 
along the border and in the interior of the nation, which are impacted 
by immigration. Most tragically, we witness the loss of life at points 
along our southern border when migrants, desperate to find employment 
to support themselves and their families, perish in the desert.'' \4\
---------------------------------------------------------------------------
    \4\ Strangers No Longer: Together on the Journey of Hope. A 
Pastoral Letter Concerning Migration from the Catholic Bishops of 
Mexico and the United States. January 23, 2003, No. 57.
---------------------------------------------------------------------------
    For these reasons, the Catholic Church holds a strong interest in 
the welfare of immigrants and how our nation welcomes newcomers from 
all lands. The current immigration system, which can lead to family 
separation, suffering, and even death, is morally unacceptable and must 
be reformed.
           implementation of comprehensive immigration reform
    As the then Director of the U.S. Catholic Conference's Migration 
and Refugee Services (MRS), I oversaw the Catholic Church's 
participation in programs to assist the millions of aliens who applied 
for immigration benefits under IRCA. Since that time, I was appointed a 
bishop by the Holy Father, where I now head the diocese of Brooklyn, 
one of the largest and most diverse dioceses in the country.
    From my position as a bishop, not only do I minister to a diocese 
that has within it many immigrants, I also serve as Chairman of Board 
of Directors for the Catholic Legal Immigration Network, Inc. (CLINIC), 
which advises and provides immigration services for dioceses all around 
the country.
    My time with MRS, my experience as a bishop, and the research that 
the Church has conducted over the last several decades lead me to 
conclude that it is possible to establish a program to permit deserving 
undocumented aliens to apply for earned legalization without crippling 
the process of adjudicating other applicants for immigration benefits 
or jeopardizing our national security. In order to do this, however, 
Congress will have to provide a number of things:

        <bullet>  Adequate Resources

        <bullet>  Proper Planning Before Implementation

        <bullet>  Establishment of a Separate Entity within USCIS to 
        Implement the Bill

        <bullet>  The Use of Qualified Designated Entities

        <bullet>  Rigorous Background Checks

    These five elements are a subset of a larger list of necessities 
that I outline later in my testimony. However, because the subject of 
today's hearing is the question of the adequacy of an already over-
burdened USCIS to process applications for legalization, I will set out 
those factors at this point in my testimony.

                           ADEQUATE RESOURCES

    It will be essential that Congress provide adequate resources for 
DHS to implement and execute any earned adjustment program. As passed 
by the Senate, the Comprehensive Immigration Reform Act (CIRA) of 2006 
anticipates this by establishing fees that will generate approximately 
66 billion dollars of revenue dedicated to processing applications for 
earned adjustment.
    The fee-generated funds, alone, will not be adequate, however. 
Congress will also need to directly appropriate funds to get the 
program started. And it will need to be vigilant to ensure that fee-
generated funds are not diverted for other purposes, as has often been 
done in the past
    While some may quarrel with the use of appropriated funds for this 
purpose, I would suggest that the alternative would likely require the 
expenditure of far more funds and yield a less desirable result. 
Imagine how much it would cost to apprehend, detain, and deport the 
estimated 12 million aliens who are in the United States illegally? The 
cost of properly implementing an earned adjustment program is tiny when 
compared to the cost of the alternative approach.
    Mr. Chairman, we believe that any comprehensive legislation can be 
implemented through reasonable fees imposed on applicants and with some 
supplemental funding appropriated by Congress. Fees should not be 
imposed, however, which place the program out of the reach of qualified 
applicants.
    Proper Planning Before Implementation/Reasonable Enactment Period: 
Sufficient time should be given between enactment and implementation so 
that regulations, procedures, and infrastructure are in place. 
Deportations of prospective applicants who qualify should be suspended 
between the two dates. However, Congress should mandate an expedited 
rulemaking process so that the program is not delayed significantly. If 
key issues are not resolved at the program's outset, inefficiencies and 
litigation will occur. The application period for the program should 
last at least one year so that all qualified applicants can raise the 
application fee and apply for the program.
    Rigorous Background Checks and Security Clearance Procedures: Given 
the terrorist threat, any program will lack credibility and support if 
it does not a ``good moral character'' requirement and rigorous 
identity and security clearance procedures. Steps must be taken, 
however, that persons are not denied eligibility based on appearance or 
demeanor, and that sufficient checks and balances are in place to 
ensure that no one who qualifies is unjustly denied from the program.
    Establishment of a Separate Entity within USCIS to implement the 
bill: A separate entity, similar to the asylum corps, should be created 
within USCIS to implement legislation; such an entity should be 
adequately funded through appropriations. A program that attempted to 
operate through existing systems would worsen the backlog and customer 
service problems that have plagued DHS in the past.
    The Use of Qualified Designated Entities: Qualified designated 
entities (QDEs) which are Board of Immigration Appeals (BIA)--
recognized should be created to assist in implementation of any new 
program. QDEs play a crucial role in public education, outreach, 
convincing applicants to come forward, preparing strong applications, 
and liaising with the government.
    Mr. Chairman, these elements are crucial to the successful 
implementation of comprehensive immigration reform legislation. Other 
important elements should also be included in any final measure:
    Operational Terms: Operational terms in the bill, such as 
``continuous residence,'' ``known to the government,'' and other 
important eligibility criteria should be specifically defined to avoid 
delays and to eliminate confusion. The lack of a precise definition of 
these terms caused many cases to languish in 1986.
    Generous Evidentiary Standards: Evidentiary standards should be 
based upon ``preponderance of evidence'' and should include a wide 
range of proof, since migrants do not often create a paper trail. This 
would allow the maximum number of persons to participate in the 
program.
    Broad Humanitarian Waiver: A broad humanitarian waiver of bars to 
admissibility, such as unlawful presence, fraud, or other minor 
offenses is necessary. See refugee waiver (INA 209c) or NACARA waiver.
    Confidentiality: Applicants for either the legalization program or 
temporary worker program should be extended confidentiality and not be 
subjected to deportation or arrest if they do not qualify. Such 
confidentiality should be preserved unless criminal issues are raised 
that are not associated with undocumented status. Without this 
assurance, it is likely that many persons would not come forward and 
the goals of the program would not be achieved.
    Derivative Benefits: Immediate family members should receive the 
same benefits under legalization/temporary worker program as the 
worker. This would keep families together and minimize fraudulent 
applications from family members desperate to remain with their loved 
one.

             THE NEED FOR COMPREHENSIVE IMMIGRATION REFORM

    Mr. Chairman, we believe that the best way to secure our borders 
and to ensure that our immigration laws are just and humane is to enact 
comprehensive immigration reform legislation.
    Since 1993, when the U.S. Border Patrol initiated a series of 
enforcement initiatives along our southern border to stem the flow of 
undocumented migrants, Congress has appropriated and the federal 
government spent about $25 billion on border enforcement, tripling the 
number of Border Patrol agents and introducing technology and fencing 
along the border. During the same period, as Congress has enacted one 
enforcement-only measure after another, the number of undocumented in 
the country has more than doubled and, tragically, nearly 3,000 
migrants have perished in the desert of the United States. It is clear 
that another approach is necessary.
    Mr. Chairman, the U.S. Catholic bishops believe that any 
comprehensive immigration reform bill should contain the following 
elements:

        <bullet>  policies which address the root causes of migration, 
        such as the lack of sustainable development in sending nations;

        <bullet>  a legalization program which gives migrant workers 
        and their families an opportunity to earn legal permanent 
        residency;

        <bullet>  a temporary worker program which protects the labor 
        rights of both U.S. and foreign workers;

        <bullet>  reform of our family-based immigration system to 
        reduce waiting times for family reunification; and

        <bullet>  restoration of due process protections for 
        immigrants.

    As you know, the U.S. Senate passed the Comprehensive Immigration 
Reform Act (CIRA) of 2006, which contains many of the elements the 
Catholic Bishops believe are necessary to comprehensively reform our 
flawed immigration system. Although it does not contain all the 
elements the U.S. bishops would like to see in legislation, it is the 
right approach and direction our country should be taking in tackling 
the problem of illegal immigration. In our view, an enforcement-only 
approach to immigration reform will not address the need for legal 
avenues for future flows of immigrants to come to the United States to 
work or join family members, nor would it address the plight of 11-12 
million undocumented in the nation. We encourage you to work with your 
Senate colleagues to produce a bill which encompasses the elements 
outlined above.
    I would like to say upfront, Mr. Chairman, that we are wary of 
recent suggestions that the Senate-passed bill's legalization, 
temporary worker, or immigrant visa provisions be modified in a way 
that would delay their implementation or subject them to subjective 
``triggers.'' We believe that any bill which Congress enacts should not 
only be comprehensive in nature, but must be implemented in a carefully 
calibrated manner. Indeed, we note that the Senate-passed already 
contains a number of mechanisms designed to ensure proper 
implementation of the legislation. We firmly believe, however, that 
Congress should not enact into law a scheme that would require further 
congressional action before implementation of the legalization, 
temporary worker, or immigrant visa provisions or subject those 
provisions to ``triggers'' that are vulnerable to the vicissitudes of 
political pressures, rather than objective measurements of what is 
necessary in order to properly implement the legislation.
    Mr. Chairman, I would like to concentrate at this point in my 
testimony on how the enactment of comprehensive immigration reform 
would enhance, not undermine, our ability to protect the nation from 
terrorist threats. The overriding principle which supports this view is 
that by enacting comprehensive immigration reform, we would better be 
able to identify who is already in the country and to identify and 
control who enters it. By enacting a program which provides an earned 
path to citizenship, for example, a far greater portion of the 11-12 
million undocumented persons in the nation likely would emerge ``from 
the shadows'' and identify themselves to the government. The 
establishment of additional employment and family-based visas for low-
skilled workers and their families would provide legal avenues for 
those seeking to enter the United States, helping to better ensure that 
the government knows who is entering the country and for what purpose. 
The current reality is that our government is unaware of the identities 
of the overwhelming majority of the 11-12 million undocumented who are 
in the United States and unable to monitor efficiently those who cross 
the border illegally.
    Mr. Chairman, I am not alone in this assessment. I would like to 
submit for the record, with your permission, a statement from nine 
former Department of Homeland Security (DHS) officials who agree that 
the best way to secure our borders is to enact comprehensive 
immigration reform legislation. In their letter, they write, ``. . . 
enforcement alone will not do the job of securing our borders. 
Enforcement at the border will only be successful in the long-term if 
it is coupled with a more sensible approach to the 10-12 million 
illegal aliens in the country today and the many more who will attempt 
to migrate to the United States for economic reasons.''
    In addition, the Catholic Legal Immigration Network, Inc. (CLINIC) 
recently completed a study on national security and immigration policy. 
As part of that study, CLINIC staff interviewed a wide range of 
counter-terrorism experts in order to examine what the United States 
must do to reduce the threat of terrorism and how immigration policy 
and U.S. immigration system fits into an overall security strategy. The 
study provided several policy recommendations to enhance national 
security through the U.S. immigration system, including the enactment 
of comprehensive immigration reform.

        <bullet>  First, in our view and the view of these experts, 
        national security should not simply be equated with protection 
        from physical attack. It also entails protecting our economic 
        and political interests; immigration policies should not deny 
        us access to the global economy. Policies which attempt to 
        prosecute, jail, and deport 7.2 million undocumented workers--
        five percent of the U.S. workforce--do not protect our economic 
        security and weaken us. Policies which would separate 10 
        percent of U.S. families by deporting their undocumented family 
        members undermine our values.

        <bullet>  Second, we should better assess the effectiveness of 
        immigration policies as a deterrent to terrorists. Does a 
        certain immigration policy relate to a legitimate national 
        security goal? For example, we do not believe that the summary 
        return of asylum-seekers, the indefinite detention of 
        immigrants, or the removal of due process protections 
        necessarily make us safer, but they certainly have the effect 
        of impinging on civil rights and undermining the fairness of 
        our laws.

        <bullet>  Third, our immigration policies should help our 
        relationship with immigration communities, not alienate them. 
        The United States should be able to identify and run background 
        checks on non-citizens, but is unable to do so if these non-
        citizens feel safer underground. Enabling state and local law 
        enforcement to enforce immigration laws also has the effect of 
        alienating major immigrant communities and reducing our ability 
        to identify and prosecute smugglers, traffickers, and would-be 
        terrorists.

        <bullet>  Fourth, comprehensive immigration reform should make 
        our nation safer, not less safe. By bringing 11-12 million 
        undocumented persons ``out of the shadows,'' we can identify 
        who they are, where they live, and with whom they may be 
        affiliated. By creating legal avenues for migration, we are 
        better able to control who is coming into the country and for 
        what purpose.

        <bullet>  Finally, we must implement a policy of assimilation 
        of immigrants to make us more secure. As we have seen in other 
        nations, such as France and England, the lack of integration 
        policies have led to violence and unrest. We also need to 
        assimilate in order to ensure our economic stability, so that 
        new workers may advance and develop in their skills.

    Mr. Chairman, it is clear that national security is not just about 
keeping those who harm us out of our country, but about keeping those 
who help us in and allowing others who want to help us to enter. 
Comprehensive immigration reform will help us achieve this goal

              THE IMMIGRATION REFORM DEBATE AND H.R. 4437

    As you know, in December 2005, the House of Representatives passed 
H.R. 4437, the Border Security, Anti-Terrorism, and Illegal Immigration 
Control Act of 2005. While the U.S. bishops appreciate the need to 
secure the nation's borders and believe that passage of a House bill 
was a necessary first step to begin the immigration debate, the USCCB 
opposes H.R. 4437 because we believe it is overly punitive, too 
narrowly focused and would cause harm to legal immigrants, asylum-
seekers, refugees, and the nation. We strongly believe that an 
enforcement-only approach will not solve the problem of illegal 
immigration, but could exacerbate it by driving migrants further 
underground and into the hands of unscrupulous smugglers. Mr. Chairman, 
with your permission I would like to submit a copy of correspondence 
opposing the legislation, dated December 14, 2005, to all members of 
the House of Representatives from Most Reverend Gerald R. Barnes, 
bishop of San Bernardino and chairman of the USCCB Committee on 
Migration.
    Mr. Chairman, let me say that, despite the opposition of the USCCB 
to H.R. 4437, we are not opposed to all aspects of the bill. Steps 
taken in Title I, for example, to increase resources for border 
security are necessary to ensure security for our country. We also 
appreciate the leadership of the House of Representatives in launching 
the immigration debate, which, although contentious, is necessary for 
the betterment of our communities.
    Mr. Chairman, I would like to highlight some of the major 
provisions of H.R. 4437 which we find problematic and which we believe 
would undermine the fairness of our immigration laws without 
necessarily making our nation safer.
    Criminalization of Undocumented Presence. As you know, Mr. 
Chairman, Section 203 of H.R. 4437 would make undocumented presence in 
the country a criminal offense and a felony, subject to at least one 
year of jail time. While the authors of H.R. 4437 have indicated their 
willingness to reduce the nature of the offense to a misdemeanor rather 
than a felony, we believe that this provision would unjustly and 
unwisely make undocumented immigrants--especially those who are here 
presently--criminals and would not serve the best interests of our 
nation. It is well established that the large majority of immigrants 
who come to this nation do so to work to support themselves and their 
families. Indeed, over eighty percent of the undocumented population in 
this nation is involved in either a part-time or full-time employment. 
They benefit our nation in terms of the taxes they pay and the work 
they perform. Instead of criminalizing these persons, we should permit 
those who are deserving to earn a legal status so they can come forward 
and contribute to our nation without fear.
    Criminalization of those who ``assist'' undocumented persons.  
Section 202 of H.R. 4437 would expose to felony prosecution anyone who 
``assists'' an undocumented person or provides assistance that permits 
an undocumented alien to ``remain in the United States,'' knowingly or 
in reckless disregard to whether a person was in the country illegally. 
In our view, Section 202 goes well beyond the scope of addressing alien 
smuggling and has the great potential to implicate many good Samaritans 
under the broadened definition of smuggling, including church 
personnel. For example, under Section 202, a church group or priest 
that provides food aid, shelter, emergency medical care or other forms 
of assistance to an individual could be imprisoned and risk forfeiture 
of their assets for ``assisting'' an undocumented person. Certainly 
alien smuggling and trafficking for profit or commercial gain are 
activities that need to be sanctioned. Existing law already provides 
for harsh penalties for such behavior. However, H.R. 4437 goes far 
beyond increasing penalties for these heinous activities. Instead, it 
would jeopardize millions of Americans--neighbors, family members, 
faith institutions, and others--who live and work with undocumented 
immigrants.
    Criminalization of Passport or Visa Fraud.  Section 213 would make 
a variety of forms of passport, visa, and immigration fraud criminal 
offenses, making even one such instance punishable by more than a year 
in prison, and, thus, making them aggravated felonies that would render 
persons so convicted inadmissible and ineligible for any immigration 
benefit. Although no one supports passport or visa fraud, distinctions 
should be made for those who engage in it for nefarious purposes and 
desperate refugees who are fleeing persecution. Often times, refugees 
must fabricate documents to escape persecution because they cannot 
obtain valid ones from the authorities persecuting them. Not only would 
this section render legitimate refugees ineligible for relief because 
of the means they had to use to escape their persecutors, it also would 
jeopardize battered women and children acting under the direction, 
force, or coercion of a parent, guardian, smuggler, or trafficker.
    Mandatory Detention for Undocumented Aliens Apprehended at or 
Between Ports of Entry.  Section 401 would require the mandatory 
detention of an alien apprehended at a U.S. port of entry or along an 
international land or maritime border of the United States. We are 
concerned that this provision is so overly broad that persons who are 
in the country legally and vulnerable populations will be harmed, such 
as U.S. citizens without proper documentation, legal permanent 
residents, asylum-seekers who are not in expedited removal and have a 
credible fear of persecution, unaccompanied children, and trafficking 
victims. It also would add additional stress to our overly burdened 
detention system, leading to increased use of local jails and the 
commingling of non-violent offenders with violent ones as well as the 
separation of families.
    Enforcement of Federal Immigration Laws by State and Local 
Authorities.  Sections 220-222 would grant broad authorization to state 
and local law enforcement authorities to enforce federal immigration 
laws. We reject the premise in these sections that all persons 
suspected of being undocumented immigrants should be rounded up by 
state and local police agents. State and local law enforcement 
authorities have many serious concerns on their hands, such as 
protecting our communities from violent criminals. If these provisions 
are enacted into law, we fear that immigrant communities would no 
longer trust local police to protect them or to share with them 
important information about crime in their neighborhoods. We also are 
fearful that massive-scale enforcement of civil immigration laws by 
ill-trained state and local police officials will result in inadvertent 
deprivations of even citizens' and lawful permanent residents' civil 
and constitutional rights.
    Expedited Removal.  Section 407 would expand and mandate the use of 
expedited removal with respect suspected illegal aliens who are not 
nationals of Canada, Mexico, or Cuba and who are apprehended within 100 
miles of a U.S. international land border, within 14 days of entry. We 
are concerned that bona fide asylum seekers would be harmed by this 
provision, since in many instances Border Patrol agents, untrained in 
the finer details of asylum law, will be making life and death 
decisions for individuals.
    Indefinite Detention of Individuals who cannot be returned to their 
country.  Section 602 would permit the indefinite detention of certain 
aliens who cannot be removed to their country of nationality. As you 
know, the U.S. Supreme Court has stated that a person can only be held 
for a period reasonably necessary to effectuate removal, and found six 
months to be reasonable. Holding a person longer than the period of 
their penalty violates basic human rights.
    Creation of 700 miles of Fencing.  H.R. 4437 would mandate the 
construction of 700 miles of fencing along the U.S.-Mexico border. We 
do not believe that the erection of such a wall would address the 
underlying causes of migration and would not deter desperate migrants 
from attempting to enter the nation. It could lead, however, to an 
increase in smuggling networks and to more dangerous attempts to enter 
the country, increasing the number of migrant deaths. As I explained 
earlier in my testimony, Mr. Chairman, we believe that the adoption of 
comprehensive immigration reform will help ease the pressure along our 
southern border.
    Elimination of Diversity Visa Program.  Section 1102 would 
eliminate the Diversity Visa program, created in 1990 to give foreign 
nationals of nations without a high volume of immigrants an opportunity 
to immigrate to the United States. This program has been successful in 
bringing in a diverse number of individuals who have at least a high 
school education and some job training. Given the new security checks 
for those entering the country, we see no justification for the 
elimination of this program.
    Mr. Chairman, these are some of the provisions in H.R. 4437 which 
cause us grave concern, although they do not represent the totality of 
our concerns. We hope we can work with you and your staff in the days 
and months ahead to ameliorate these provisions and work toward a just 
comprehensive immigration reform package.

                               CONCLUSION

    Mr. Chairman, I would like to thank you for inviting me to testify 
before your subcommittee today. Our nation stands at an important time 
in her history, when we need to remain vigilant against outside threats 
without sacrificing values which we hold dear--justice, fairness, and 
opportunity. We must honor and continue our history as an open and 
democratic society which values hard work and the contributions of 
immigrants. As soon as possible, I ask that you work with your Senate 
colleagues to fashion a comprehensive immigration bill which is just, 
humane, and provides for the security needs of our country.

    Mr. Hostettler. Thank you, Bishop.
    At this time, we will turn to questions from Members of the 
Subcommittee.
    First of all, Mr. Gadiel, you concluded your statement that 
we must enforce our immigration laws. Is it your understanding, 
having studied, I am sure very closely, the work of the 9/11 
Commission, is it your understanding that if immigration laws 
that were in place prior to September 11, 2001 would have been 
aggressively enforced, that the plan that led to the tragic 
events of September 11 could have been derailed?
    Mr. Gadiel. I think there is no doubt of that. The 9/11 
Commission report, in great detail, described how the consular 
officials in Saudi Arabia granted visas to people who were 
clearly ineligible and should have had secondary inspection and 
their applications were defective on their face or had missing 
answers. And every one of them is a young, single male from 
terror-sponsoring nations, and not one of them was eligible, 
not one.
    But the reason the State Department issued these visas was 
because they are pressured by the open borders lobby to let 
more people in. The travel industry wants to sell more airline 
tickets, the college industry wants to sell more seats, and the 
high-tech industry wants more cheap labor. And so there is this 
enormous pressure, and that is why we don't enforce their laws.
    Mr. Hostettler. Thank you.
    Supporters of the Senate's amnesty bill have argued that 
the bill will actually enhance our national security by 
bringing illegal aliens out of the shadow, as they say. Do you 
agree with that?
    Mr. Gadiel. Well, Mohamed Atta had a driver's license and 
he was out of the shadows, and I don't know what good that did 
us on 9/11. And what this does is it allows people who are 
terrorists to, when they get their American citizenship, to 
adopt a new name, which, in effect, wipes them off of the 
terrorist watch list. They can adopt a new name. They go back 
to their own country they are not even known by that name 
anymore.
    It gives the veneer of legitimacy to anybody no matter how 
dangerous that person is. If we had given--we almost did give 
citizenship, in a sense, because of the open access and process 
in this country, but if we had given him citizenship, it would 
have been even more of a privilege for him.
    Mr. Hostettler. Thank you.
    Mr. Maxwell, in your testimony, you state that USCIS has 
``a customer service mentality that invariably trumps national 
security concerns.'' You also state that high-ranking 
immigration officials have termed immigration ``a right rather 
than a privilege.''
    What effect would these attitudes that are there today have 
on USCIS's ability to screen applications under S. 2611 for 
national security risks?
    Mr. Maxwell. This attitude is really a carryover from the 
INS days. It simply transferred from INS into CIS as DHS was 
created. And despite calls from Director Gonzalez that national 
security is the forefront for his agency, once you leave 
Washington, D.C., the pressure of backlog elimination that 
currently exists within USCIS simply forces managers in the 
field to push applications forward at the expense of national 
security. They have to meet the mandate of backlog elimination.
    S. 2611 will just continue to put pressure on the managers 
in the field. And so what they will do is they will continue to 
develop programs in the field despite calls from senior 
leadership at headquarters so that they can meet the mandate of 
Congress, and national security will suffer. They will simply 
cheat the system so that they can push benefits through the 
system.
    Mr. Hostettler. Thank you.
    Mr. Cutler, you are a former INS examiner. How difficult 
would it be to verify that an illegal alien has resided in the 
United States for a given period of time, say, 5 years?
    Mr. Cutler. It would be difficult with the resources that 
are there, because we keep hearing about background checks. A 
background check is not the same thing as a field 
investigation. All a background check means is you run 
fingerprints and a name that the person put on their 
application. A proper investigation would require agents to go 
out, knock on doors, show photographs, interview people. It is 
an arduous task. It might take days per application.
    If you are dealing with millions of applications and you 
are dealing with a workforce of a couple of thousand agents, 
the numbers don't add up. It would take many, many years to 
even begin to get a handle on it, and meanwhile with the open 
borders that we have and with the Visa Waiver Program that we 
have, we are being inundated by aliens on a daily basis and we 
would be getting inundated with applications.
    In fact, I think in 1986 the original estimate was that 
there would be about a million to a million and a half aliens 
applying for amnesty. When the final numbers were in, I believe 
the actual number of applications that had been approved was 
more than 3.5 million. Partially, they may have been 
undercounting, but I also believe that we had aliens who 
entered the United States after the program actually began to 
give amnesty and people successfully claimed to have been here 
for the requisite number of years in order to qualify.
    And I think that with the lack of resources and the much 
greater number of potential applicants today, there is just 
absolutely no way that this system would have even a shred of 
integrity.
    Mr. Hostettler. Thank you.
    Mr. Maxwell, how many contract workers does USCIS currently 
have?
    Mr. Maxwell. They have approximately 7,500 contractor 
workers on the books now.
    Mr. Hostettler. Will USCIS need to hire additional contract 
workers to adjudicate the applications under S. 2611?
    Mr. Maxwell. They would have to hire more contract workers. 
Just prior to my resignation in February, discussions were they 
would hire between 7,500 and 10,000 additional employees, most 
of that outsourced to contract employees.
    Mr. Hostettler. For just----
    Mr. Maxwell. Just to handle what at that point was called 
the Temporary Worker Program.
    Mr. Hostettler. Very good.
    What would be the ramifications for national security and 
public safety by allowing contract workers to adjudicate 
amnesty applications?
    Mr. Maxwell. Really, the answer to that is a two-pronged 
answer, and it really raises some grave concerns for national 
security. At the time, I was involved in planning for the 
Temporary Worker Program, as it was called then. There was 
discussion that the contract employees would not undergo a full 
background investigation and would still be given access to 
sensitive law enforcement databases to vet the alien 
applicants, which raised some grave concerns, because at the 
same time we had just convicted a contract employee for 
accessing those sensitive law enforcement databases and 
releasing sensitive law enforcement information to a criminal 
who was being investigated by the Drug Enforcement 
Administration.
    So without thoroughly vetting those contract employees and 
giving them access to terrorist watch list, obviously connect 
the dots, we are not sure who we are giving access to these 
terrorist databases and can they be co-opted by foreign 
intelligence, by terrorist groups, by criminal organizations? 
Absolutely.
    Mr. Hostettler. Can they be planted?
    Mr. Maxwell. Can they be planted? Absolutely. That was one 
concern that we raised, and our recommendation was that all 
contract employees, all Federal employees undergo a full 
background investigation which would be at great expense, 
obviously, before they be given access to these sensitive law 
enforcement databases.
    The second part of the equation was hiring this second 
workforce for USCIS to conduct background investigations on the 
alien applicants, that the background investigation process 
itself is flawed.
    As the inspector general recently reported, 45,000 aliens 
from high-risk nations, state sponsors of terrorism, have been 
released into the general population since 2001 because the 
background check process itself is flawed.
    We simply cannot verify the backgrounds, the identities, 
the countries of origins of everybody who comes through the 
system. We just don't know who they are. We are essentially 
giving these people new identities, releasing them into the 
country even though they are coming to us from countries that 
sponsor terrorism. So it really does present a grave national 
security risk.
    Mr. Hostettler. Thank you.
    The Chair recognizes the gentlelady from Texas, Ms. Jackson 
Lee, for questions.
    Ms. Jackson Lee. I thank the Chairman very much.
    In a better day, I would like to be in a conference right 
now really ironing out, I think, the concerns that have been 
articulately expressed really over and over again by so many. I 
do want to acknowledge that we appreciate the witnesses who are 
here and the very diverse testimony that comes forward.
    And I do want to acknowledge and express again the sympathy 
to Mr. Gadiel and also raise a question with you.
    If we are trying to fix what is a broken system, and might 
I say that it is broken both in terms of the legal system and 
an undocumented system, we have to fix both, along with border 
security, one of the elements that has been crucial is to get 
the men and women on the front lines well prepared.
    I believe you had an opportunity to review H.R. 4044 that 
talked about my legislation giving equipment to the Border 
Patrol, border security. Is that a good place to start along 
with some of the other issues that we are discussing and to 
include the northern border where we provide the night goggles, 
the power boats, the computers, the training, technology for 
trained Border Patrol agents?
    We know statistically that Border Patrol agents, by the few 
numbers that they have now, have stopped about $1.7 million 
from coming across the border. Just imagine if they had the 
equipment and the staffing, training the kind of effective tool 
they would be.
    Is that an important step for Congress to make and fund to 
its maximum what they need to provide those kinds of resources?
    Mr. Gadiel. Absolutely, without question. I think it is 
quite obvious and logical that the more people that are on the 
borders, patrolling the borders and the better equipment they 
have, the more people we will stop. And, certainly, the 
northern border is not something that can be ignored at all. I 
agree with you 100 percent on that.
    Ms. Jackson Lee. Well, I appreciate your support of my 
legislation, and I look forward to trying to pursue this very 
point.
    I do want to go to Bishop DiMarzio and thank you so very 
much, because before us we have just recently announced the 
Pence-Hutchison bill, and I take to heart Mr. Maxwell's 
comments. I think it would be an outright outrage to talk 
about, if you will, contracting out security data.
    But one of the failures of the IRCA, and if you might share 
why we failed at IRCA, because you were actively involved in 
helping or hoping to make it work. We failed in IRCA, [one], 
because we shortchanged the funding, we shortchanged the 
partnership, we didn't do employer sanctions. But here you are 
today.
    We are all recognizing that we have 12 million 
undocumented, hardworking, taxpaying individuals who simply 
want an economic opportunity. And the Pence-Hutchison bill that 
talks about report to deport is frivolous and foolish.
    So tell us how we can make IRCA work and how nonprofits who 
understand that we do have a system of laws and a system of 
immigrants, and we don't want to violate laws, we want to deal 
with the large humanity that we have and really stop ignoring 
the challenges before us. And that is, of course, to gain 
control of the border, to conduct workforce enforcement and 
certainly not skimp on the dollars.
    How can we make this an effective implementation, say, for 
example, of a conference report that would take a large part 
from the Senate bill?
    Bishop DiMarzio. I think again from the experience of the 
last time, there were failures, but there were a lot of 
successes. An overwhelming amount of good citizens have been 
added to this country, and I think that is what we have to look 
at, the success that has happened there.
    I think the paradigm has to be changed. I think in the past 
we had an adversarial relationship between the INS and the 
entities that were designated by Congress to assist them. They 
knew that they could not do the job by themselves. They need to 
set up, obviously, USCIS, a separate unit, and they could never 
add it to the present unit. And I think we have got to look at 
in the past IRCA was talked about as kind of a tripod, looking 
at enforcement, the legalization issue and the workplace 
enforcement, the border enforcement and workforce enforcement. 
I think those same elements still need to be addressed.
    The workforce enforcement, talking about employer 
sanctions, isn't sufficient, because most employers are on it. 
They check what they are given and it is not adequate. We need 
to have a secure way in which employers can be sure that they 
are hiring workers that are authorized for employment. And that 
is something that needs to go contemporaneously with securing 
the border, while at the same time giving legalization to the 
people that are already here.
    Ms. Jackson Lee. And how can nonprofits be helpful in this 
process, short of the component of the Pence bill, which is to 
contract out Government's work? But you can be effective in 
helping to make sure this actually works properly.
    Bishop DiMarzio. I think there is a network across the 
country of nonprofits that are looking to assist people, assist 
the Government, assist the country in making sure that the 
legalization process is legal and that it is expeditiously 
carried out. So I think the network is available.
    I think we are a self-correcting system in our country; we 
can improve things. If we see that something is wrong, that is 
our greatest asset. We have been able to change and to improve, 
and think what we have learned from the past, and there has 
been several analyses. We can make sure that those problems 
don't reoccur and that we design a system that is even more 
effective.
    Mr. Hostettler. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Iowa for 5 minutes 
for questions.
    Mr. King. Thank you, Mr. Chairman.
    I would like to thank the witnesses as well, and I 
appreciate your continued involvement in this issue.
    To sit here and listen, one of the things that occurs to 
me, and I think I direct my first question to Mr. Maxwell, is 
that the concept of processing millions of people through a 
background check or background test and the first foundation of 
that would be, what information, what identification documents 
would they bring to the table for that background check?
    And let's presume that since the majority are from Mexico, 
let's just talk specifically of Mexicans as a standard, do you 
know what percentage of Mexican citizens have a legitimate 
document that identifies who they are? What percentage gets 
birth certificates at birth and that tracks them through life, 
for example?
    Mr. Maxwell. I don't know specifically, sir, what 
percentage have legitimate documents. I do know, however, that 
the Castorena cartel in Mexico is the largest organized crime 
family dealing specifically in counterfeit documents in Mexico, 
operates in 50 cities in the United States. It is a $300 
million a year counterfeit document trade here in the United 
States. They can produce counterfeit documents with embedded 
biometrics, documents that can fool law enforcement upon visual 
inspection.
    Mr. King. So if you were going to verify, you would have to 
go back and verify at the place of birth.
    Mr. Maxwell. Absolutely.
    Mr. King. And that is the only way that one could actually 
do that legitimately.
    Mr. Maxwell. Absolutely.
    Mr. King. And that concurs with a constituent I have when I 
asked him that question, and he is from Mexico and a good legal 
resident and a good business person in my district, his answer 
was, ``I don't know what the percentage is but I can buy 
whatever I want--driver's license, birth certificate--easily 
purchasable on the market.
    I see Mr. Cutler leaning ahead.
    Do you care to comment, Mr. Cutler?
    Mr. Cutler. Yes. Thank you, Congressman King. Good to see 
you.
    You know, even the way our process has worked has been very 
disturbing to me. I recall that for years when the old INS 
would replace lost alien cards, because of the crush of time, 
the idea of moving it quickly, we were replacing our own alien 
cards without reviewing the immigration file. And then you 
would get a hold of the file and you would see where that 
person had gotten 8 or 9 or 10 cards, and when you saw the 
photographs, they were all obviously of different people.
    Mr. King. Thank you.
    And let me, again, direct a question back to Mr. Maxwell 
first, and that is just slightly off topic, but if there were 
Ellis Island centers established through legislation that is 
proposed in this Congress and that would be in various 
countries around the world, in fact any country around the 
world but the closest proximity, again, would be Mexico, as a 
former employee of USCIS, how could a private company possibly 
conduct background checks faster than USCIS? How would they 
pass and lap USCIS in their efforts to do so within a week 
turnaround for 10 million or 12 million?
    Mr. Maxwell. Well, Congressman King, based on my knowledge 
of the Castorena family, I would have grave concerns about 
operating or establishing an Ellis Island center privately 
owned in Mexico and thinking that it would be operated by 
anybody but that family in Mexico and thinking that you are 
going to get legitimate documents coming into the United 
States. I don't think it is going to happen.
    Mr. King. Even aside from that, which is a profound and 
legitimate point, aside from that, can you imagine a legitimate 
company being able to do background checks faster than or in 
cooperation with CIS as accelerating the process that currently 
exists with USCIS?
    Mr. Maxwell. In tandem with USCIS? I don't believe they 
could.
    Mr. King. And wouldn't they have to rely upon USCIS in 
order to have a legitimate background check?
    Mr. Maxwell. Absolutely.
    Mr. King. And so they are already limited by Government in 
a private sector there would just be injected into the middle 
of this would just be another layer of bureaucracy still 
limited by the bureaucracy that would be over the top of it.
    Mr. Maxwell. If there is going to be some level of 
integrity in the system, there is always going to have to be a 
Government check somewhere along the line to ensure that the 
information the Government is getting is accurate.
    Mr. King. Not the hirings of law breakers.
    Mr. Maxwell. Correct.
    Mr. King. Thank you.
    And then I would turn to Bishop DiMarzio, and I appreciate 
your testimony, Bishop, sincerely, and the level and the tone 
that you bring to this and the commitment that you have made.
    I just have a series of questions, and I know I will run 
out of time before we get this explored as far as I would like, 
but does the Church draw a distinction between legal and 
illegal with regard to the migrants that you referenced in your 
testimony?
    Bishop DiMarzio. Obviously, the distinction is there, that 
we don't say persons are illegal but their status may be 
illegal, and we do make the distinction. Obviously, when we 
speak about it and what we have said right along, our testimony 
has been longstanding, that there obviously are people who 
break the law.
    Mr. King. And I would yield my time back after thanking the 
witnesses, but I would be one who would support a second round, 
Mr. Chairman.
    Mr. Hostettler. The gentleman is instructed there will be a 
second round of questions.
    The Chair now recognizes the gentlelady from Texas out of 
order, without objection, for 5 minutes for questions.
    Ms. Jackson Lee. I thank the Chairman very much.
    And I think we have in this Committee attempted to find 
common ground, but I would be remiss if I did not express the 
frustration I have in holding these hearings when we have two 
legislative initiatives, one vote on by the House, which you 
may agree or disagree with, and one voted on by the Senate. 
Regular order requires that we, right now, be in conference 
trying to resolve this matter for the American people.
    Mr. Maxwell, you have shared with us a litany of issues, 
and we had great interest in the issues that you offered to us. 
In fact, my commitment to you is that we are going to fix some 
of these insurmountable mountains that you have indicated. We 
don't need corruption. We don't need to have a system that is 
broken. We need to fix it so that people who are impacted 
negatively can, in essence, have the right route to go. And I 
don't think that you are here speaking about us not fixing the 
system. You want it to be fixed.
    And so I, again, say that we are here, we haven't gained 
control of the border, we haven't done a good job of workforce 
enforcement, and the Republicans have missed any number of 
opportunities to fund the dollars. I mean, look at the 9/11 
Commission report, D's and F's in terms of the work that we are 
supposed to do.
    I am going to put into the record a statement, I am not 
sure of the date, Mr. Chairman. I ask unanimous consent. It is 
from the Irish Echo, ``Irish and America Under Siege.'' And I 
will read this quote: ``If the Irish antecedents of Andrew 
Jackson, John F. Kennedy and Ronald Reagan are trying to enter 
the United States today, they would have to do so illegally.'' 
And so I would ask unanimous consent to put this in the record.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. The reason why I do so is because I want 
the question of immigration to be the face of America. Every 
single person has an immigrant background except for our Native 
Americans. And so rather than throwing darts, we need to be 
trying to fix this broken system.
    Mr. Maxwell, just if you would just briefly say, would more 
funding and more oversight help in some of the issues that you 
would raised with USCIS?
    Mr. Maxwell. I think it would help, ma'am, but also I think 
there needs to be a paradigm shift. The workforce is horribly 
demoralized. There needs to be a shift in management, a shift 
in leadership. There needs to be accountability. We recognize 
the immigration system itself is flawed. There is no integrity 
in the immigration system. It needs to be changed. So let's 
change it. Let's get to the business at hand and just get it 
done.
    Ms. Jackson Lee. Let's get it done. Let's give you what 
your rules are and what you are supposed to enforce, how you 
are supposed to enforce it and the tools to do it.
    Mr. Maxwell. Absolutely.
    Ms. Jackson Lee. And let management know that those who are 
working need to be rewarded, need to know what the ifs, ands 
and don'ts are, they need to know the yeses and the noes; is 
that correct?
    Mr. Maxwell. Absolutely.
    Ms. Jackson Lee. And that is what reform is all about.
    Mr. Cutler, you worked--and let me thank you for your 
leadership and your service.
    Mr. Cutler. Thank you.
    Ms. Jackson Lee. One of the issues is fraudulent documents. 
We have got legislation making its way, trying to fix this 
whole issue of getting rid of these fraudulent documents. As 
you well, I have legislation to set up a task force. How much 
of an element is that and us getting to work on dealing with 
the massive fraudulent documents?
    Mr. Cutler. Well, I thank you for your leadership as well, 
and I think it is a very important issue. The only question 
that sticks in my mind is what resources would the 
Administration allocate, because that always seems to be the 
problem. I have been here for hearings where we have discussed 
where the Congress would authorize hiring many more people for 
both the Border Patrol and ICE and the Administration was 
willing to hire.
    But it is also a matter of providing the training for the 
field agents. Right now they are not getting training in the 
identification of fraudulent documents at ICE. They are still 
not getting the foreign language training so that they can do 
meaningful field investigations and interviews. And these 
issues have been going on for years now.
    And we also need to go after the fraud schemes as well as 
the fraud documents, and I believe your task force addressed 
that also. Because no matter what we do on the border, if we 
don't have integrity to the immigration benefits program, it is 
kind of like securing your house with good strong locks and 
then handing out the keys to anybody who walks by.
    Ms. Jackson Lee. Absolutely. Absolutely.
    Mr. Cutler. So this is very important, and I do appreciate 
what you are trying to accomplish with that.
    Ms. Jackson Lee. More resources, more focus and more 
training.
    Bishop DiMarzio, if you would just--you were very good in 
at least saying to us that we don't have to be failures in this 
process, do we? And the immigrants that you meet, undocumented 
maybe, I don't know your range of those who you come in contact 
with, if we just separate the fact that we have got to secure 
our borders and we are all in the war on terror, we are not 
ignoring that, the immigrants that you meet, the immigrants 
that may come through the Catholic diocese all over America, 
the economic immigrants, what are they wanting and how can we 
fix their particular situation?
    Bishop DiMarzio. I think most immigrants, if you ask them, 
they come because they want a better life for themselves and 
their children, and that is clearly the motivation that lets 
them leave their home countries.
    If the situation in many of these countries were better, 
they would opt to stay. No one particularly wants to be a 
migrant. Necessity dictates that this happen. I think, again, 
in a comprehensive approach, we would look to some of the 
sending countries and try to work with them to see if we can do 
something that will deter some of the migrants coming, 
especially those who come obviously in an undocumented manner.
    Irregular migration is a worldwide problem. It is not only 
a north-south problem, it is a south-south problem, in many 
places in Africa, we had a hearing there in South Africa, and 
we see that even in Africa there is a large migration of 
people.
    The issue comes down to you have to have international 
cooperation. You need to work in that way. I think the success 
of most people that come here is clear. Migrants come with the 
idea they want to succeed, they want to work, they want to make 
a better life, and the vast majority do so. I think we have got 
to look at that issue as part of the heritage of our country 
and at the same time not ignore the security issue, which is 
overwhelming today.
    Ms. Jackson Lee. Mr. Chairman, I close by simply saying, if 
I have gotten anything from all four of the witnesses, all of 
them, it is that we need to roll up our sleeves, we need to get 
to work, we need to provide the kind of funding, targeting, 
training and most of all we need not spend our time on 
additional hearings that would thwart us getting into a 
conference and doing the heavy lifting that American people 
require.
    I thank the gentlemen, I thank the Chairman. I yield back, 
and I ask unanimous consent for my statement to be placed in 
the record.
    Mr. Hostettler. Without objection.
    [The prepared statement of Ms. Jackson Lee follows in the 
Appendix]
    Ms. Jackson Lee. Thank you.
    Mr. Hostettler. Bishop DiMarzio, we are discussing S. 2611. 
Can you tell me if the U.S. Conference of Catholic Bishops 
officially supports S. 2611 or any of the Committees, say, the 
Committee on Migration?
    Bishop DiMarzio. I think we have had some support of 
various elements. I don't think we have given a blanket support 
for the whole bill, but there are certain things that we would 
agree with.
    Mr. Hostettler. Could you elaborate on some of those 
provisions?
    Bishop DiMarzio. Right now, I think I would not be able to 
do that off the top of my head.
    Mr. Hostettler. Could you offer that for the record at a 
later time?
    Bishop DiMarzio. Sure, we will. We could do that.
    Mr. Hostettler. Thank you very much.
    Mr. Gadiel, it has been argued that the legalization 
provisions in S. 2611 did not constitute an amnesty. How do you 
respond to that argument?
    Mr. Gadiel. Well, in a way, I agree. It is not an amnesty; 
it is something more. An amnesty is you commit a crime, amnesty 
means that you are restored to your civil rights as they were 
before you committed the crime. This one amounts to saying 
that--it is comparable to saying, ``You rob a bank, you stay 
clean for a couple of years, and we will give you $1 million at 
the end.'' In this case, the $1 million is the citizenship.
    What we are saying to people is, you have broken the law, 
pay few bucks in taxes, don't get in trouble for a couple of 
years and then you get the big prize, which is what they wanted 
originally.
    So this is not amnesty. This is something far, far, far 
beyond amnesty. I can't find a word for it. ``Earned 
legalization'' is a good way of concealing that it is something 
other than amnesty.
    Mr. Hostettler. Thank you.
    Mr. Cutler, as a former special agent, how difficult would 
it be--you referred to undocumented aliens, and there is a lot 
of discussion about undocumented aliens.
    Mr. Cutler. Right.
    Mr. Hostettler. How difficult would it be for an illegal 
alien to obtain documents that showed he had worked or resided 
in the United States for a given period of time?
    Mr. Cutler. Well, it would be very, very simple. It is a 
cottage industry. There are document vendors everywhere willing 
to sell you identity documents claiming you are anybody or 
anything you want to be.
    But I also want to quickly take this opportunity to make a 
point that I think is important. We are indeed a nation of 
immigrants. My background is one of immigrants. My mother came 
here fleeing the oppression of Eastern Europe. My grandma died 
in the Holocaust; I am named for her. So when we talk about 
illegal aliens we are not talking about immigrants.
    We have to get back to the language. Section 101 of the 
Immigration and Nationality Act talks about the terms. If we 
don't have a clear understanding of what we are dealing with, 
it becomes hard or impossible to have a meaningful 
conversation.
    An alien is a term that has fallen from disuse, but an 
alien is not a pejorative. The term, ``alien,'' by law, is 
defined as any person who is not a citizen or a national of the 
United States. And I think we need to make a clear distinction 
between someone who is here as an immigrant, meaning they have 
been lawfully admitted, and someone who is here as an illegal 
alien.
    And when people hear, ``Well, we want to do things for 
immigrants,'' well, that is right, because these are folks who 
have been lawfully admitted. To want to legalize an immigrant 
is like offering to make water wet. An immigrant already is 
legal.
    So we need to draw a clear distinction, and I think so much 
of the discussion has to been to obfuscate the distinction 
between what it is to be an alien who has been lawfully 
admitted and an alien who either entered the United States 
through a port of entry and then violated the terms of their 
admission, committed a crime and so forth, or an alien who ran 
the border and snuck in in the dead of night.
    So documentation, going to your question, is very simple to 
come by, but I think we really need to remain focused, if you 
would forgive me for the suggestion, on having clear 
nomenclature so that we all understand precisely what we are 
trying to achieve and what we are really talking about.
    Mr. Hostettler. Very good. Very good. I appreciate that.
    And in fact, today, many of the individuals who are 
referred to as undocumented aliens are not undocumented. Don't 
they have documents?
    Mr. Cutler. Yes. Many of them have in fact entered the 
United States, in fact I recently testified at a different 
Subcommittee hearing about the fact that 40 percent of the 
illegal alien population is believed to have in fact entered 
the United States through ports of entry, and it is important 
to make the point that the 19 terrorists who attacked our 
nation on September 11, 2001 all entered our country through 
ports of entry. They were not undocumented. They were aliens 
who either got visas through fraud or otherwise entered the 
country by gaming the system, and they have become very adept 
at gaming the system.
    Mr. Hostettler. And even individuals who came into the 
country illegally, in many cases, are documented. They are 
fraudulent documents.
    Mr. Cutler. Oh, absolutely. They are fraudulent, these 
documents, and they do it for two reasons. And this is, again, 
why we have got to be careful. You know, the road to Hell is 
paved with good intentions. Yes, many of the people who come 
here are economic refugees, and I think what the bishop said is 
right, we do need to go after the sending countries and perhaps 
tell countries like Mexico, ``If you want a trade agreement, 
clean your own house. Provide a situation where your most 
valuable export aren't your own people.'' And I think that is 
very important. It is important for the well being of these 
folks and for America's security.
    But among these people, it is almost like a Trojan Horse, 
and I refer to that in my testimony, is that we are letting 
people that we don't know who they are. We are not letting them 
in, the come in in the dead of night in some cases, and they 
are here to do harm to us. And these are the sleepers that I 
spoke about.
    And when someone is working at a job and you don't know 
what they are up to, whether they are driving taxis and so 
forth, they are hiding in plain sight. And every time you will 
see where a terrorist suspect is arrested, it is rare to see 
where it says that they were unemployed. They always have a job 
listed after their names. And they have identity documents. And 
they are either getting real documents by concealing their true 
identities and applying for ``lost'' driver's license, lost 
passports, lost whatever, or they are getting counterfeit 
documents. Those are the two basic types of documents.
    That is why the lynchpin that holds immigration enforcement 
together are these documents, which is why this is one of the 
critical areas of vulnerability, and it is still not being 
addressed.
    And listening to Mr. Maxwell's testimony, coupled with my 
own experience, it makes it very difficult to sleep at night. 
Peter is a good friend. I wish I didn't know him, because I 
know him because of the loss of his son on 9/11. And my 
neighbors, many of them lost family.
    What we are trying to do, Mr. Chairman, is to prevent 
another 9/11. We live in a perilous world, as you well know, 
and our concern is that, for whatever reason, when you look at 
2611, it is almost as though there was no 9/11 Commission 
report. The whole point, I thought, to the Commission and their 
report was so that the legislators of our country and the 
president of our country could take the advice and the findings 
of that commission that was convened specifically to find where 
the loopholes were and then do something about it.
    And when I read 2611, it is almost as though there had been 
no 9/11 Commission report. I recently testified before the 
Senate Judiciary Committee, and the whole focus was on the 
economics of immigration, but nothing was done to discuss the 
9/11 Commission findings. I was the only witness who raised the 
issue, and nobody wanted to discuss that component of that 
problem.
    So if we don't address the security issues, nothing else we 
do matters. And that is why I am pleased to be here today, and 
that is why I am very happy with your leadership, because I 
think it is critical for Congress and for that American people 
to understand that the Senate bill almost utterly ignores the 
fact that there even was a 9/11 Commission. It is incredible to 
me.
    Mr. Hostettler. Thank you, Mr. Cutler.
    The Chair recognizes the gentlelady from California for 5 
minutes for questions.
    Ms. Waters. Thank you very much, Mr. Chairman. I, too, 
would like to register a concern that we are proceeding with 
these hearings in a most unusual way.
    We have two bills that have been passed, one on the House 
side and one on the Senate side, that should be in conference 
and we should be seriously working in conference to resolve the 
differences and to make changes and come up with a realistic 
immigration reform bill.
    And there are those who would say that these hearings that 
are being held here and the ones that will be held all during 
the month of August are somewhat political and that it simply 
is an attempt to get those people who are opposed to any 
immigration reform in a sensible way all stirred up in order to 
maybe pass one version of the bill rather than working out the 
differences in the bill.
    However, I decided to come back to the hearing and I have 
decided, perhaps, to even participate in some that will be held 
during the recess, particularly in the San Diego area. Because 
I do think, as it has been alluded to today, that we owe it to 
America to work hard at this and to do our very, very best to 
do the right thing about immigration reform.
    And so I have come today to ask a simple question that I 
have been asking over and over again. We have 11 million to 13 
million undocumented immigrants, illegal immigrants, no matter 
how you try and define, as was attempted just a moment ago, 
what is the correct language to use.
    I do not use illegal alien. I have found it to be 
unacceptable and disliked by many legal immigrants, just as the 
word, ``refugee,'' that was applied to many people after 
Katrina was used, and they objected to that definition of who 
they were. And I just kind of respect how people generally feel 
about what they are called. And so I shall refer to them as 
undocumented workers or illegal immigrants.
    Now, I would ask those who are here today, Mr. Gadiel and 
perhaps Mr. Cutler, the House bill that you said is being 
discussed here does not talk about what you do with 11 million 
to 13 million illegal immigrants or undocumented workers. What 
would you do? They are here.
    The Senate bill talked about a path to legalization, 
recognizing that if you have not been here for 2 years or more, 
that perhaps you should be returned. You should be returned. If 
you have been here 2 to 5 years, then you have to pay taxes, 
you [have] to learn English, you have to do all these things, 
you have to get in line. They talk about, they give us a way by 
which to deal with the fact that they are here, 11 million to 
13 million. What would you do with them?
    Mr. Gadiel. My answer is attrition. Deprive people of the 
rights that they do not deserve. Deprive people of the ability 
to get jobs, deprive people of the ability to finance 
mortgages, deprive them of Government-backed mortgages, make 
sure they are not voting, make sure that they are not obtaining 
any benefits like in-State tuition, driver's licenses. Mike has 
a wonderful analogy. He said, nobody would break into an 
amusement park if they couldn't get on the rides. Well, once 
they are in the amusement park, if you shut down the rides, 
people will leave because they have no benefits.
    Ms. Waters. I am going to interrupt you, not because I want 
to be disrespectful to you but I just want to pinpoint a few 
things. Undocumented worker, illegal immigrant, in the country 
for 20 years, own a house, two children, they are legal, the 
undocumented grandmother not legal; she doesn't know any other 
place. This is home, 20, 30 years. What do you do with her?
    Mr. Gadiel. I repeat: attrition, attrition, attrition. It 
is not a matter of a luxury that we can offer to people from 
around the world to be here illegally. The 9/11 terrorists were 
able to function in this country because they had an ocean in 
which they could operate in plain sight.
    Ms. Waters. No, no, no, no. I go along with that. I do. 
And, look, I want this country to be secure, and I want us to 
have good immigration reform.
    What do you do with the 20-, 30-year illegal immigrant here 
who has no other place to go? They don't know anything about 
any place in Mexico or any place else. They have two children 
and a grandchild. What do you do with them?
    Mr. Gadiel. Let me point out that when a person comes here 
from a foreign land, they know nothing about this country.
    Ms. Waters. What do you do--excuse me, reclaiming my time.
    Do you have any better----
    Mr. Cutler. I do.
    Ms. Waters. Yes.
    Mr. Cutler. Thank you, Congresswoman Waters. Look, there 
are two things here. Number one, when we talk about someone who 
has been here for 2 years or less, there is no illegal alien 
who is going to walk into an immigration office and admit to 
being here less than 2 years.
    Ms. Waters. Okay. Well, let's take that off the table.
    Mr. Cutler. All right. But let me----
    Ms. Waters. Reclaiming my time, let's take that one off the 
table. Answer my question about this 20-to 30-year-old----
    Mr. Cutler. There is a provision where an alien who can 
show hardship, who can make the case that you are making can 
apply for suspension of deportation or the equivalent, 
revocation of removal. But the bottom line is, that is a small 
percentage. The bulk of the people we are talking about aren't 
what you are describing. The majority, in my experience, as an 
agent, are people that have been here for 3 or 4 years and----
    Ms. Waters. Yes, but you don't have any--you don't have 
that documentation here with you. You cannot tell me----
    Mr. Cutler. But my point is----
    Ms. Waters. That you know how many people have been here 
30, 20, 15, 10 years----
    Mr. Hostettler. The gentlelady's time has expired.
    Ms. Waters. Unanimous consent for him to try and answer the 
question.
    Mr. Cutler. I will do it in 30 seconds, Mr. Chairman.
    Mr. Hostettler. Is the hypothetical situation that the 
gentlelady suggests covered by current law, and is that 
individual----
    Mr. Cutler. There are legal remedies for someone that is 
here for 30 years, but the problem is really identifying how 
long they are here. We have heard so much today about how easy 
it is to falsify data as to who you are as well as how long you 
have been here.
    Mr. Hostettler. And that individual is subject to 
deportation today under the immigration laws today.
    Mr. Cutler. Yes.
    Mr. Hostettler. Thank you very much.
    The Chair recognizes the gentleman from California, Mr. 
Issa, for questions.
    Mr. Issa. Thank you, Mr. Chairman. And I was more than 
happy to just be a spectator and listen to this. I come from 
San Diego, have 2 secondary checkpoints in my district, and so 
I think more than most districts I see every day the good and 
the bad that comes from legal and illegal immigration.
    I want to just make a couple of quick points. One, I guess, 
is that I was in San Diego in 1986, and between 1986 and 1989, 
basically, we had a huge amnesty. So if you were here for 30 
years, my arithmetic says that is 1976, and so those who were 
here for 30 years or 25 years were already eligible in the last 
go-round.
    But I do think there was a point made, and I think Mr.--I 
am going to get your name right--Gadiel?
    Mr. Gadiel. Gadiel.
    Mr. Issa. I think you, sort of, made it, and I think it is 
a very important point that we get on the record. People who 
come to the United States from Mexico, because Mexico is not 
really good at--or Guatemala--teaching English at a primary 
level, they generally come with very little knowledge of the 
United States. They generally come basically and start from 
square one.
    So the argument that people who have been here for a 
substantial period of time are somehow alienated because they 
are going to be strangers in a strange land, isn't that the 
definition of what every immigrant deals with.
    Mr. Gadiel. Yes, that is the definition, plus the fact that 
since so many illegal aliens today are not assimilating, they 
retain the culture and language of their home country so that 
the ability to re-assimilate in their home countries is going 
to be, in most cases, a simple matter.
    Mr. Issa. And I have the greatest respect for the 
gentlelady from California. She and I serve a State that sees 
every day very similar problems. But I do kind of have one odd 
difference with her--not odd by I think predictable--that the 
difference between the House version and the Senate version is 
not a difference between Republicans and Democrats, it is a 
difference between the vision of two bodies that if I read it 
correctly is irreconcilable unless one body makes major 
concessions that are presently, publicly unwilling to make.
    Then with all due respect to the gentlelady from 
California, going out and holding a series of field hearings, 
having Members of the House reach out to the public and be 
reached out to by the public couldn't be [more] appropriate. 
And, again, I don't think we defined partisan as the difference 
between the House and the Senate. And these field hearings, 
including from this Committee and Subcommittee, I guess I have 
a hard time understanding, they may be bicameral if there is a 
term for that.
    John McCain has led the charge for a very different vision 
than Darrell Issa, and I think that finding a way to come 
together, which I support, is going to require making sure we 
have the pulse of America.
    Is there anyone that sees somehow that I am wrong, that you 
just have to dot an I between the House vision and the Senate 
vision, both of which are bipartisan?
    Mr. Gadiel. I think you are right. They are irreconcilable. 
They are two entirely different philosophies. One is to reward 
illegal behavior, and the other is to--and put our country at 
risk and the other is to punish illegal behavior and preserve 
our security.
    Mr. Issa. Thank you. And I will limit time because I know 
time is short.
    I appreciate the opportunity to, sort of, clear up a couple 
of areas, Mr. Chairman. I yield back.
    Mr. Hostettler. Thank you.
    The Chair recognizes the gentleman from Iowa for purposes 
of a second round of questions.
    Mr. King. Thank you, Mr. Chairman.
    Kind of, in a way, picking up where I left off in the 
previous round, I direct my question to Bishop DiMarzio, and 
that is we have existing laws today, and I would ask, do the 
American bishops, and I believe you are here to testify on 
behalf of American bishops, do they support enforcement of 
existing law?
    Bishop DiMarzio. Yes, we do.
    Mr. King. And then that includes the deportation that is 
part of the existing law for violation of immigration laws?
    Bishop DiMarzio. Obviously, when the law can be enforced, 
we would say, ``Enforce it.'' But I think what we are dealing 
with here is an issue that we can enforce the deportation of 10 
million to 12 million people. I don't think it is practical. I 
think when we look at a law that is broken, that is not 
effective, it is time to change it.
    Mr. King. Bishop, that is a judgment call, and we have 
heard testimony here on more of the attrition effect. I don't 
think there is anybody on this panel, I don't know of anybody 
in this Congress that has advocated that we round up 12 million 
people and deport them, although we often hear that as the 
rebuttal as to why we can't enforce our existing laws.
    So we could go down this path of enforcing a law wherever 
people come in contact with the law and be deported back to 
their home country, and the Church is consistent with--supports 
that then, I understand.
    Bishop DiMarzio. That is true. We also have programs in the 
countries in which they come and are supported by the bishops 
in those countries to help these deportees to find a new life 
in those countries so that we see that that is a reality and we 
are working with that.
    Mr. King. And that is something I very much support and 
appreciate that.
    Then with regard to the labor supply in this country and 
the statement that we need immigrants and we can bring them 
here legally, that is a judgment call, I think, that the 
American people are in the process of debating right now.
    But if there are 12 million illegals in America and the 
testimony this Committee has received is that perhaps out of 
that 12 million, 7 million that are working. And of those 7 
million, they represent about 5 percent of the workforce, 5 
percent of about 140 million workers in America, doing about 
2.2 percent of the productivity because they are generally the 
lower-educated.
    So if that all stopped and if it couldn't stop and wouldn't 
stop all at once under anybody's scenario, but it would be a 
gradual transition, we have in this country 77.5 million non-
working Americans. And of those, there are at least 61.1 
million that are in a prime working age, between 20 and 65, 
another 9.3 million between the ages of 16 and 19 that aren't 
in the workforce in any way whatsoever that are missing and 
they are unskilled. And they are missing their opportunities to 
get into this economy.
    So I raise this because I think that there is a lot yet to 
be learned about whether America needs a lot of unskilled labor 
or not, given that we have got so many people that are not 
working in America.
    But I would like to take this discussion a little bit 
further and that is the last published population of Mexico was 
104 million and 46 percent want to come to the United States. 
And the people that would come to the United States would be 
first the young men but the people that were young, the younger 
they are, I guess, from an age of maturity standpoint, from 
there on they are more likely to come because they have more to 
gain and less to lose.
    And so if 46 percent want to come to the United States and 
the more than come here the more that are likely to follow, 
then it is an easy scenario to see where Mexico could perhaps 
not be 104 million but maybe 52 million or 50 million or less 
in a matter of a generation. And then that great vacuum that is 
created there, who is there to rebuild Mexico and what kind of 
disservice would the United States be doing to this nation of 
Mexico if we opened our borders in that fashion?
    I would point out something our founding fathers put right 
in the Declaration of Independence: ``Prudence, indeed, will 
dictate that governments long established should not be changed 
for light and transient causes. And, accordingly, all 
experience hath shown that mankind are more disposed to suffer 
while evils are sufferable than to right themselves by 
abolishing the forms to which they are accustomed.''
    Those forms to which the Mexican people have become 
accustomed will never change as long as the United States of 
America is a relief valve for the human suffering south of us. 
And I would submit that we are doing a grave disservice to the 
Government and the people south of our border if we are going 
to believe that we are the relief valve for all human suffering 
that might want to come to the United States.
    And the point that I would make at the conclusion of this 
is that the question that never gets asked, I will say seldom 
gets asked and never answered is, is there such a thing as too 
much immigration, legal and illegal, and if so, how much?
    And I would submit that to Bishop DiMarzio, please.
    Bishop DiMarzio. You don't ask easy questions, do you? 
Obviously, population is another whole question. Are there ever 
too many people of the world? We haven't got there yet.
    One of the great economists that recently died, Julian 
Simon said, ``The ultimate resource is people. People create 
other resources.'' Again, everything has to be limited. I think 
from the Catholic Church's point of view, we talk about the 
common good, and we have to have our laws that deal with 
immigration and population, that deal with the common good.
    Again, one of the issues you brought up is the labor 
market. We don't have control over the labor market in the 
United States. We don't understand it very well. We have got 
various views of what the labor market is and displacement that 
is caused by undocumented workers or documented aliens. We have 
no consensus. We have on both sides of the issue great 
disagreement. Now, that is part of the problem we are having, 
to come to some kind of a decision with Congress. You have got 
conflicting information, and I think some of the information is 
correct and some of it is incorrect, if you want my opinion. 
But you need to look at that very carefully.
    I think a restrictionist point of view, just because we 
fear people coming to this country, that is the only basis of 
it, obviously can't be held on any tenable way.
    Mr. King. And I thank the Bishop. And I would just point 
out that Congress does have to answer that question.
    I appreciate your testimony and all of your testimony, and 
I would yield back to the Chairman. Thank you.
    Mr. Hostettler. I thank the gentleman.
    The questions of the Subcommittee being completed, I want 
to thank members of the panel, witnesses that have appeared 
today, your contribution to the record.
    Gentleman from Texas want questions?
    Mr. Gohmert. If I could ask a few.
    Mr. Hostettler. Oh, I am sorry.
    Mr. Gohmert. I am sorry.
    Mr. Hostettler. No, no. The gentleman from Texas, Mr. 
Gohmert, is recognized for 5 minutes.
    Mr. Gohmert. Thank you, Mr. Chairman.
    My friend from Iowa has pointed out some interesting things 
and asked some interesting questions, and he doesn't ask easy 
questions, but I would like to go one past a point he made 
about 46 percent people in Mexico being interested in coming to 
the United States and go through that.
    You know, those of you that have been to Mexico, you are 
familiar with it, you deal with people, Mexican nationals in 
this country, you know they have some really smart people. I 
would submit that the United States citizenry, on the average, 
is not smarter than those in Mexico, that, on the average, we 
do not have harder working people than those in Mexico. Mexico 
has incredible, vast resources.
    So the question I come to, what over the U.S. history and 
the Mexican history has caused the United States and Mexico to 
come to the point that nearly half of their people want to 
leave and come here? Anybody got any insights into that? 
Because if we can answer that question, then we could really 
get to the heart of dealing with this issue, I would think.
    Bishop DiMarzio. I think you are living in a globalized 
world, and when our neighbors to the south have a different 
economy, different opportunities, you just have to look at your 
TV sets, they don't have to go too far.
    Mr. Gohmert. Okay. But that begs the question: What has 
caused that different economy?
    Bishop DiMarzio. Well, it is an inequality between the 
economic development of nations, underdevelopment in certain 
countries and superdevelopment in others, so that the 
equalization of this is a macro issue.
    Mr. Gohmert. But the expression has been used over the 
years, ``Capital is a coward.'' Money flows into places where 
it is at least risk. So why has the capital not gone to Mexico 
to develop that country where half of America wants to go to 
Mexico? What has made the difference? Why has that economy 
flourished here and not flourished there? That is what I would 
like to get to the heart of.
    Bishop DiMarzio. Obviously, capital also wants to be safe, 
and if they don't feel that they are secure, if there is an 
unstable government or government that has taken advantage of 
the investment of capital, that is a problem. But, again, the 
trade agreements that we are trying to negotiate, have 
negotiated with many of these Latin American countries do hold 
some hope if we recognize that it is not only good----
    Mr. Gohmert. Yes, but that is talking about where do we go 
from here. I would like to get to the heart, if anybody else 
has an answer.
    Mr. Gadiel. Perhaps it is the corruption that is so endemic 
in Mexico and the fact that perhaps property is not secure and 
that there is an oligarchy that--and I can't give you any deep 
thing, but I know the country is highly corrupt and there is an 
oligarchy, and that is not conducive to a middle class. And 
then, naturally, it is going to cause people to want to come to 
this country.
    Mr. Gohmert. Yes, sir?
    Mr. Cutler. Yes. I think Peter is on the right path. I 
think it is a matter of much of the GNP is enjoyed by a very 
small percent of the Mexican economic elite so that wages are 
depressed, working and living conditions are horrific for 
anybody except for those at the very top of the economic food 
chain in Mexico. Whereas, in the United States I think there 
are greater opportunities for a much broader spectrum of our 
citizens.
    And I think that because of that, there are greater 
economic opportunities in the United States, better standard of 
living in the United States, as compared with what Mexico is 
experiencing.
    Mr. Gohmert. Mr. Maxwell, do you have any comment?
    Mr. Maxwell. Yes. There is one important point here is they 
can come here and do it simply, under the radar and send money 
back, and that is a very important piece of the puzzle.
    Mr. Gohmert. Yes, but that doesn't answer my question, why 
they can come here and make more money than they can, why they 
don't have a thriving economy in Mexico. And I hated to cut the 
Bishop off but I really want to get to this because I think it 
is at the heart of all of this we are discussing. If we can 
figure out and point our finger to why they are not as 
successful or more so in Mexico, then we get to the heart of 
the problem, then we deal with why people want to come here 
instead of stay in their own beautiful, wonderful country.
    And my time is running out, so I would just propose this to 
you: It has been mentioned that perhaps there is a great deal 
of corruption and oligarchy. The GNP is enjoyed by a very small 
number of people. I would submit to you that that means that 
they are not a nation of laws. They don't follow the law. It is 
dictated by whomever happens to be in charge.
    And that, apparently, from what some of you have said, the 
difference is, in this country, for most of our history, we 
have done a far better job of following the law and applying it 
across the board and even though there is unfairness, we do a 
better job of applying it across the board and enforcing it 
than Mexico has.
    And so how ironic that we would be asked to ignore our law, 
the very thing that has made us more successful, potentially, 
than Mexico, and we are being asked to ignore our law, which 
would make us like the country 46 percent apparently want to 
leave.
    Thank you, Mr. Chairman.
    Mr. Hostettler. I thank the gentleman.
    Once again, I want to thank the members of the panel for 
your testimony and your contribution to the record. It has been 
highly valuable.
    All Members will have 5 legislative days to make additions 
to the record.
    We have noticed the markup of two private immigration bills 
and a private claims resolution. Currently, we do not have a 
working quorum of six Members, so, therefore, without 
objection, the Chair will recess the Subcommittee, subject to 
the call of the Chair later this afternoon when we are able to 
get a working quorum.
    We are recessed.
    [Whereupon, at 2:20 p.m., the Subcommittee was adjourned 
subject to the call of the Chair.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress from the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims

    At the hearing today, we will hear testimony on whether 
implementation of the Senate's Comprehensive Immigration Reform Act of 
2006, S. 2611, would result in an administrative and national security 
nightmare. We also will hear testimony on the possibility that 
criminals and terrorists will be able to slip through the security 
clearances and that they will create new identities for themselves that 
will be recognized by the U.S. government.
    We have had extensive experience with legalization programs. We 
have implemented seven of them in the last 20 years. This includes the 
Immigration and Reform Control Act (IRCA), the Nicaraguan Adjustment 
and Central American Relief Act (NACARA), the Haitian Refugee 
Immigration Fairness Act (HRIFA), and the Legal Immigration and Family 
Equity Act (LIFE Act). The experience with IRCA, however, is the only 
one that has involved millions of applications.
    In implementing the IRCA legalization programs, INS worked closely 
with other federal agencies; leased additional office space at 109 
locations; hired and trained approximately 2,000 additional employees, 
including a large number of retired former federal employees; and 
obtained assistance from volunteer agencies.
    IRCA specified that application fees would have to be high enough 
to cover program expenses. In addition to the filing fee, applicants 
were required to pay for services performed in connection with the 
application, such as fingerprints, photographs, and medical 
examinations.
    INS permitted applicants to file their applications with community 
organizations, which were called ``Qualified Designated Entities'' 
(QDEs), instead of applying directly to INS. Approximately 980 QDEs 
participated in the program.
    INS was able to process 3 million applications. This included 1.7 
million people in the regular legalization program and another 1.3 
million in the program for special agricultural workers.
    The primary issue with regard to S. 2611 is whether U.S. 
Citizenship and Immigration Services ( USCIS) would be able to process 
millions of additional benefits applications. Emilio Gonzalez, the 
director of USCIS, has acknowledged that if USCIS had to institute a 
guest-worker program today, the system could not handle it. He went on 
to explain, however, that USCIS is undergoing a complete overhaul, 
which includes everything from upgrading immigration facilities to 
computerizing the paper files that currently must be mailed across the 
country when an applicant changes addresses. USCIS expects to be able 
to handle the increased case load if S. 2611 is enacted.
    INS was able to process 3 million applications 20 years ago, and we 
have two advantages now that INS did not have in 1986. First, we have 
the benefit of experience with seven large legalization programs, 
including IRCA. Second, technology has improved dramatically in the 
last 20 years. When the IRCA legalization applications were being 
processed, information was still being disseminated in mailings and by 
telephone, and computer capability was primitive compared to what 
computers can do today.
    The second issue is whether terrorists and criminals would be able 
to slip through the background checks that would be performed as part 
of that application process. This is not a situation in which we are 
trying to prevent terrorists and criminals from entering the United 
States. The undocumented immigrants who would be able to apply for 
legalization under S. 2611 are already in the United States. Moreover, 
legalization applicants would receive the same security checks that are 
performed on other aliens who are seeking residence in the United 
States. If the security checks are inadequate, they are inadequate for 
all applicants, not just legalization applicants.
    Another issue is whether terrorists and criminals would be able to 
use fraudulent documents to create new identities. We are much better 
at dealing with document fraud now than we were 20 years ago when the 
IRCA applications were processed. It also is worth noting that the 9/11 
terrorists used their own identities when they entered the United 
States as nonimmigrant visitors. They did not need false identities to 
enter or to remain in the United States. We cannot deal with terrorists 
unless we know who they are, which is an intelligence issue, not an 
immigration issue.
Letter from the Honorable F. James Sensenbrenner, Jr., a Representative 
in Congress from the State of Wisconsin, and Chairman, Committee on the 
 Judiciary; the Honorable Henry J. Hyde, a Representative in Congress 
 from the State of Illinois, and Chairman, Committee on International 
    Relations; and the Honorable Peter T. King, a Representative in 
    Congress from the State of New York, and Chairman, Committee on 
      Homeland Security to the U.S. Conference of Catholic Bishops

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

Report from the United States Government Accountability Office entitled 
 ``Immigration Benefits: Additional Controls and a Sanctions Strategy 
  Could Enhance DHS' Ability to Control Benefit Fraud,'' submitted by 
   Michael Cutler, Former Executive Examiner, Inspecter, and Special 
             Agent; Immigration and Naturalization Service

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


Article entitled: ``Irish in America Are `Under Seige','' by Caitriona 
Palmer, submitted by the Honorable Sheila Jackson Lee, a Representative 
 in Congress from the State of Texas, and Ranking Member, Subcommittee 
              on Immigration, Border Security, and Claims
                   irish in america are `under siege'
                          by caitriona palmer

    WASHINGTON D.C.--Irish immigration activists warned U.S. lawmakers 
last week that the future of the Irish community in America is at risk 
if comprehensive immigration reform is not passed.
    ``The facts are clear to us,'' said Niall O'Dowd, chairman of the 
Irish Lobby for Immigration Reform. ``Without immigration reform, the 
Irish-born community in the United States will no longer exist and one 
of the greatest contributors to the success of this nation will be no 
more.''
    Speaking as a witness before the U.S. Senate's Judiciary Committee 
hearing on immigration, O'Dowd said that the Irish undocumented 
community in the U.S. was ``under siege'' and that America would be the 
``big loser'' should Irish immigrants have to return home.
    ``Our neighborhoods are disappearing, our community organizations 
are in steep decline. Our sporting and cultural organizations are 
deeply affected by the lack of legal emigration,'' he said.
    ``The sad reality is that there is simply no way for the 
overwhelming majority of Irish people to come to the United States 
legally at present.''
    Testifying before a sparsely attended committee that included 
Democratic Senator Ted Kennedy, an avid supporter of the ILIR, O'Dowd 
told the hearing that current immigration law would have prevented 
Kennedy's ancestors from entering the country.
    ``If the Irish antecedents of Andrew Jackson, John F. Kennedy and 
Ronald Reagan were trying to enter the United States today they would 
have to do so illegally,'' he said.
    Praising the ILIR for their efforts, Kennedy said that prior 
immigration reform in the U.S. had unintentionally penalized the Irish.
    ``The way that the legislation was developed worked in a very 
dramatic and significant way against the Irish,'' Kennedy said.
    The hearing was the first opportunity for the ILIR, a New York-
based grassroots organization that has dramatically raised the profile 
of the undocumented Irish community in the U.S., to provide a formal 
presentation to senior U.S. lawmakers about the effects that living in 
the shadows has had on the community.
    ``Their driver's licenses will not be renewed which means mothers 
cannot drive their children to school. The day-to-day struggle of 
living illegally in America has taken a heavy personal toll on them. I 
submit that they deserve better,'' O'Dowd said.
    Under the glare of bright lights and against the whirr of digital 
cameras, O'Dowd sat at a long rectangular table in front of the 
imposing horseshoe-shaped committee table. A large clock with bright 
red numbers kept track of the five-minute speaking time allotted to 
each witness.
    Scattered behind O'Dowd in the packed committee room on Capitol 
Hill were dozens of supporters, many of whom were undocumented, wearing 
the now-familiar green and white ``Legalize the Irish'' t-shirts.
    They listened as other witnesses including Commerce Secretary 
Carlos Guitierrez, a native of Cuba and a naturalized citizen, 
testified that immigration was to the key to America's future economic 
health.
    ``I have lost many things in my life--my wallet, my keys,'' 
Guitierrez told the committee. ``But I have never lost my passport. It 
is my most prized possession.''
    Sitting in the back row of the room listening intently to the 
testimony was Bruce Decell, whose 28-year-old son-in-law, Mark 
Petrocelli, died in the north tower of the World Trade Center on Sept. 
11, 2001. Wearing a photograph of his son-in-law on the lapel of his 
suit and holding a large framed photo of the twin towers, Decell had 
come to Washington D.C. to protest comprehensive immigration reform.
    ``If they're going to amnesty in millions more illegal aliens, 
Americans are going to die. And I'm against it,'' he said, offering a 
view held by many opponents of the Senate-backed bill.
    One expert told the committee that illegal immigration jeopardized 
U.S. national security and that terrorists could exploit what he called 
a lax legal framework.
    ``When the United States provides an alien with resident alien 
status or when we naturalize an alien, we are providing him with the 
`keys to the kingdom,' '' said Michael W. Cutler, a fellow with the 
Center for Immigration Studies.
    But Steve McSweeney, a 32-year-old undocumented contractor from 
Ireland, said that he and other undocumented Irish had labored for 
years in America and that they were only asking for legal status.
    ``I believe I've given my fair share to America,'' said McSweeney, 
who has lived illegally in the U.S. for nine years.
    ``I was one of the first respondents to Ground Zero. I spent nearly 
two weeks in hospital afterwards where I had a serious arm operation 
because I cut my arm back there,'' he said.
    The Senate Judiciary Committee hearing was the latest in a series 
of hearings called by the House of Representatives and Senate amid 
fierce debate over how to address illegal immigration.
    At stake is an immigration bill agreed by the U.S. Senate and 
backed by President George W. Bush that would provide a path to 
citizenship for the more than 11 million illegal immigrants currently 
living in the U.S. Senate lawmakers are under intense pressure to reach 
a compromise between this bill and a competing House bill that stresses 
strict border security.
    this article available at: http://www.irishecho.com/search/
searchstory.cfm?id=18030&issueid=477
    (c) 2006 Irish Echo Newspaper Corp.
                               __________
    Letter from the Essential Worker Immigration Coalition et al., 
  submitted by the Honorable Sheila Jackson Lee, a Representative in 
 Congress from the State of Texas, and Ranking Member, Subcommittee on 
                Immigration, Border Security, and Claims
July 27, 2006
Rep. John Hostettler, Chairman
Subcommittee on Immigration, Border Security, and Claims
House Committee on Judiciary
Washington, DC 20510

    Re: Submission for the Record--Hearing July 27, Subcommittee on 
Immigration, Border Security and Claims: ``Whether Attempted 
Implementation of the Senate Immigration Bill Will Result in an 
Administrative and National Security Nightmare''

Dear Chairman Hostettler:

    The undersigned broad coalition of organizations writes to echo its 
support and commitment to comprehensive immigration reform. 
Collectively we call on Congressional leaders to focus on the substance 
of the issue and on the economic and national security needs of our 
nation. As evidenced by the calls to action made by the American 
people, business and labor communities, unions, religious 
organizations, immigrant rights groups and others, the time to act and 
repair our broken immigration system is now and the way to do it is 
comprehensive in nature. Republicans and Democrats from both Chambers 
of Congress should work together towards a practical compromise that is 
responsive to our country's needs. Moreover, we urge leaders to remain 
committed to finding a procedural path that will result in a piece of 
legislation that addresses the real issues and realities.

    We recognize that the House and Senate approach this debate from 
different perspectives and come to the table with two very different 
pieces of legislation. Undeniably, negotiations during a conference 
committee will be difficult. However, it is imperative that this 
process continue to move forward and not be derailed by partisanship or 
politics. The undersigned groups remain committed to the comprehensive 
reform principles below and stand ready to work with Members of 
Congress to address these issues:

        <bullet>  Improve national security through smart and targeted 
        enforcement, combined with workable and realistic immigration 
        reform measures that would create disincentives for illegal 
        immigration;

        <bullet>  The implementation of an efficient, practical and 
        accurate employee verification system. This system should be 
        rolled out in a reasonable manner so as not overly burden 
        employers or employees either financially or functionally;

        <bullet>  A future guest worker program that will help to meet 
        the employment needs of our economy  when U.S. workers are not 
        available and ensures appropriate workplace and wage 
        protections while providing these contributing members of 
        society the opportunity to earn legalization and citizenship; 
        and

        <bullet>  A path to earned legalization and citizenship for 
        undocumented workers who meet qualifying criteria. This program 
        should include also a fix to the employment and family based 
        immigrant visa process and numerical limitations.

    The opportunity before us is a unique one. We must all work 
together to reform our immigration policies so that we can enhance our 
security, protect our economy, and continue our heritage as a country 
of immigrants. The alternative, to do nothing or worse, to do more 
harm, is not and should not be an option. We urge you to work with 
leadership towards a solution that Congress and the American people can 
be proud of.

Sincerely,

Essential Worker Immigration Coalition
U.S. Chamber of Commerce
National Restaurant Association
American Immigration Lawyers Association
National Immigration Forum
Tamar Jacoby, Senior Fellow at the Manhattan Institute
National Council of La Raza
Asian American Justice Center
Service Employees International Union
New American Opportunity Campaign
American Nursery and Landscape Association
Esperanza USA
Grover Norquist, President of Americans for Tax Reform
Coalition for Immigration Security

                                 <all>

</pre></body></html>
